App. 1
IN THE SUPREME COURT OF
THE STATE OF IDAHO
Docket No. 46941
NOELL INDUSTRIES, INC., )
a Virginia corporation,
)
Plaintiff-Respondent, )
)
v.
)
)
IDAHO STATE TAX
)
COMMISSION,
)
Defendant-Appellant. )

Boise, January
2020 Term
Opinion filed:
May 22, 2020
Karel A. Lehrman,
Clerk

Appeal from the District Court of the Fourth
Judicial District of the State of Idaho, Ada
County. Steven Hippler, District Judge.
The judgment of the district court is affirmed.
Lawrence G. Wasden, Idaho Attorney General,
Boise, for Appellant. Nathan H. Nielson argued.
Hawley Troxell Ennis & Hawley, LLP, Boise,
for Respondent. Richard G. Smith argued.
-----------------------------------------------------------------------------------------------------------------------------------------------

MOELLER, Justice.
This case concerns a straightforward issue of tax
law: whether the gain from the sale of an ownership
interest in a legal entity constituted “business income”
under Idaho Code section 63-3027. In 2010, Noell
Industries, Inc. sold its interest in a limited liability

App. 2
company for a net gain of $120 million. Noell Industries reported the income to Idaho, but paid all of the
resulting tax on the gain to the Commonwealth of Virginia, its commercial domicile. Following an audit, the
Idaho Tax Commission concluded the net gain was
“business income” pursuant to Idaho Code section 633027(a)(1) and, thus, apportionable to Idaho. Noell Industries sought judicial review before the Ada County
District Court pursuant to Idaho Code section 633049(a). The district court ruled that the Commission
erred when it (1) determined that Noell Industries
paid insufficient taxes in 2010 and (2) assessed additional tax and interest against it. The Commission appealed. We affirm.
I.

FACTUAL AND PROCEDURAL
BACKGROUND

In 1993, Mike Noell incorporated Noell Industries,
Inc., (“Noell Industries”)1 in Virginia to develop and
sell combat and tactical gear. The company was inspired by Noell’s service as a U.S. Navy SEAL. Following his military service, Noell started the corporation
in his garage, designing and manufacturing a variety
of gear for military, law enforcement, and recreational
use. For about a decade, Noell Industries manufactured and sold tactical gear until 2003 when Noell
transferred the net assets of Noell Industries to a new
1

While Noell Industries was originally named Blackhawk Industries, Inc., it will be referred to as “Noell Industries” to reflect its
2010 name change and avoid confusion with a similarly named
entity.

App. 3
company of his creation, Blackhawk Industries Products Group Unlimited, LLC (“Blackhawk”), in exchange
for a 78.54% membership interest. Blackhawk’s remaining ownership units were conveyed to persons
other than Noell Industries. Blackhawk is a Virginia
limited liability company that operated across multiple states, including Idaho. Blackhawk also maintained its own human resource department. Noell
served as Blackhawk’s President and CEO and was
part of a six-member management team. However, as
a “high level executive” Noell did not manage Blackhawk’s day-to-day operations, marketing decisions,
and other ordinary business and sales decisions.
Blackhawk established a physical presence in
Idaho in 2004 when it purchased and developed real
property, commenced sales of its products, and hired
employees in Idaho. Then, in 2007, Blackhawk leased
a factory in Boise to serve as its “operation center” for
the West Coast. The Boise factory was one of four U.S.
factories that produced duty gear, body armor, holsters,
and other outdoor and hunting products. By 2010,
Blackhawk “operated in substantially all of the states”
and held approximately $20 million worth of real and
personal property in Idaho. In contrast, Noell Industries never owned any real property in Idaho.
Ultimately, Blackhawk became the company that
manufactured and sold the combat and tactical gear
while Noell Industries only held a majority interest in
Blackhawk. After the 2003 reorganization, Noell Industries’ activities “were limited to owning the 78.34%
investment in Blackhawk [LLC]” and another business

App. 4
that leased real property to Blackhawk within Virginia.
Almost all of Noell Industries’ income came directly
from Blackhawk. For example, in 2009, Blackhawk
“generated $10,496,500 in income for Noell Industries.” Noell Industries’ remaining income for 2009 was
$18,948 in accumulated interest. The company also reported a loss of $396,394 from the other entity in which
Noell Industries held an interest. In its tax returns,
Noell Industries’ reported “investment” as its business
activity, as well as its “product or service.” Noell Industries did not have any employees between the 2003 reorganization and the 2010 sale. In addition, Noell
Industries did not share any assets or expenses with
Blackhawk, nor did it provide financing or other services to Blackhawk. However, Blackhawk and Noell Industries utilized the same professional firms for their
respective legal and accounting services.
In 2010, Noell Industries sold its 78.54% interest
in Blackhawk for a net gain of $120 million. Noell Industries reported the gain from the sale on its 2010
Idaho tax return, but it did not apportion any of the
gain to Idaho and reported “nearly all of the gain to
goodwill.” Instead, Noell reported and paid the taxes
on the gain on the sale to Virginia. Idaho’s state auditors, however, concluded the gain was “business income” pursuant to Idaho Code section 63-3027, and the
Idaho Tax Commission affirmed this decision. In its
initial Notice of Deficiency Determination (“NODD”),
the Commission calculated the total tax owed to be
$4,481,875, but later reduced the total to $1,423,520

App. 5
after removing the penalty assessments in its final decision of November 8, 2017.
Noell Industries contested the Commission’s decision by filing a “complaint” for judicial review with the
district court “pursuant to Rule 84(d)(5) of the Idaho
Rules of Civil Procedure.”2 Both parties recognized
that the primary issue presented on review was
“whether Idaho has authority to tax the gain on Noell
Industries’ sale of its interest in Blackhawk LLC.” The
complaint framed the issues for which review were
sought as “whether the Tax Commission erred in affirming the deficiency determinations and assessing
additional tax and interest in the Decision, related to
the gain on the sale of the Blackhawk interests,” which
is inconsistent with Idaho Code section 63-3027 and a
violation of the Due Process and Commerce Clauses of
the U.S. Constitution. Pursuant to section 63-3049(b)
of the Idaho Code, and prior to filing its complaint,
Noell Industries paid the requisite 20% deposit
($300,000) as a condition of appealing the Commission’s decision. The Commission requested a de novo
review pursuant to Idaho Code section 63-3049. After
reviewing cross-motions for summary judgment, the
2

To be clear, there is no “Rule 84(d)(5)” in the applicable version
of the Idaho Rules of Civil Procedure. Likewise, the Court notes
that Rule 84 does not allow for the filing of a “complaint”; rather,
it requires that judicial review be commenced “only by the filing
of a petition for judicial review.” I.R.C.P.84(b)(1) (emphasis
added). However, Idaho Code section 63-3049 directs an aggrieved taxpayer to file a “complaint” with the district court.
While such inconsistency in terminology between court rules and
statutes is not unique, it is noted to avoid confusion.

App. 6
district court found that the gain was not “business income” under section 63-3027 and, therefore, not subject
to apportionment to Idaho. The Tax Commission timely
appealed.
II.

STANDARD OF REVIEW

Questions of law, including the interpretation of
relevant statutes and constitutional provisions, receive
de novo review by this Court. Nye v. Katsilometes, 165
Idaho 455, ___, 447 P.3d 903, 906 (2019). When such
questions are considered in the context of a summary
judgment order, we review the record de novo, applying
the familiar standards set forth in I.R.C.P. 56:
“[T]he standard of review for this Court is the
same standard used by the district court in
ruling on the motion. The court must grant
summary judgment if the movant shows that
there is no genuine dispute as to any material
fact and the movant is entitled to judgment as
a matter of law. Summary judgment is appropriate if the pleadings, affidavits, and discovery documents on file with the court, read in a
light most favorable to the nonmoving party,
demonstrate no material issue of fact such
that the moving party is entitled to a judgment as a matter of law. If the evidence reveals no genuine issue as to any material fact,
then all that remains is a question of law over
which this Court exercises free review.”

App. 7
Lee v. Willow Creek Ranch Estates No. 2 Subdivision
Homeowners’ Ass’n, Inc., 164 Idaho 396, 399, 431 P.3d
4, 7 (2018).
III.

ANALYSIS

A. The district court did not base its decision
on an unpleaded issue.
The Commission first argues on appeal that the
district court erred by deciding this case on an unpleaded issue, the unitary business test, which was
first raised in Noell Industries’ motion for summary
judgment. It further argues that the unitary business
issue is a “discrete” question and test arising from the
“business income” question. Noell Industries contends
that this argument is a “straw man” procedural technicality because the question at issue—one that was
pleaded in the complaint—is whether the gain from
selling Blackhawk is “business income.” We agree with
Noell Industries.
Idaho Code section 63-3049(a) permits a taxpayer
to appeal the Tax Commission’s decision by filing a
complaint in district court. Under the Idaho Rules of
Civil Procedure for pleadings, “[e]ach allegation must
be simple, concise, and direct. No technical form is required.” I.R.C.P. 8(d)(1). These rules comport with
Idaho’s notice-pleading requirement, which requires a
pleading to put the adverse party “on notice of the
claims brought against it.” Hodge for & on behalf of
Welch v. Waggoner, 164 Idaho 89, 96, 425 P.3d 1232,
1239 (2018) (citation omitted). Accordingly, notice

App. 8
pleading requires the complaint to provide “some indication” of the basis for relief, but not always an exact
statutory basis or formal cause of action. Brown v. City
of Pocatello, 148 Idaho 802, 807, 229 P.3d 1164, 1169
(2010)).
We conclude that Noell Industries sufficiently
pleaded this issue below. The pertinent provisions of
Noell Industries’ complaint read as follows:
7. This case involves the question of whether
Plaintiff is subject to tax, as a non-resident of
Idaho, on gain from the sale of an intangible
asset with a situs in Virginia. That asset is
Plaintiff ’s ownership of interests in a Virginia
limited liability company named [Blackhawk].
8. Pursuant to Rule 84(d)(5) of the Idaho
Rules of Civil Procedure, Plaintiff states that
the issues on appeal are whether the Tax
Commission erred in affirming the deficiency
determinations and assessing additional tax
and interest in the Decision, related to the
gain on the sale of the Blackhawk LLC interests, for reasons that include the following in
paragraphs 9-12 of this Complaint.
9. The Tax Commission’s assessment of tax
on the gain on the sale of the Blackhawk LLC
interests is inconsistent with Idaho law, in
that it does not represent business income of
Plaintiff subject to apportionment under
Idaho Code § 63-3027. Instead, it represent
[sic] an investment by Plaintiff, an intangible

App. 9
asset the gain from which should be allocated
to Virginia, the state of Plaintiff ’s residence.
10. Plaintiff did in fact report the gain on the
sale to the State of Virginia, and paid the tax
on that sale to that state.
11. Alternatively, the Tax Commission’s assessment of tax on the gain on the sale of the
Blackhawk LLC interests violates the Due
Process and Commerce Clauses of the United
States Constitution and the comparable provisions of the Idaho Constitution. The state of
Idaho has insufficient contacts with plaintiff
to justify taxation of this income of this income in Idaho.
12. Alternatively, even if the gain on the sale
of the Blackhawk LLC interests was taxable
in Idaho, the Tax Commission erred in determining the amount of that gain. . . .
Within these paragraphs are references to the overarching issue—whether the Commission erred in finding that the gain was “business income”—as well as
arguments relating to Idaho Code section 63-3027 and
the Due Process and the Commerce Clauses of the U.S.
Constitution. Therefore, this issue turns on whether
the “unitary test” falls under the “business income”
analysis under either Idaho Code section 63-3027, or
the cited constitutional provisions. The short answer is
that it falls under both because the unitary business
test is part and parcel of the “business income” question.

App. 10
First, the unitary-business principle was developed by the U.S. Supreme Court under the Commerce
and Due Process Clauses of the U.S. Constitution to
deal with mounting constitutional inquiries concerning what and how much a state could tax multi-state
businesses. MeadWestvaco Corp. ex rel. Mead Corp. v.
Illinois Dep’t of Revenue, 553 U.S. 16, 24 (2008). Generally, determining whether a business is unitary arises
in courts under claims that a state violated the Due
Process and Commerce Clauses by imposing an income-based tax on gains earned outside the state’s borders. See e.g. MeadWestvaco Corp. ex rel. Mead Corp.,
553 U.S. at 24; Hercules Inc. v. Comm’r, 575 N.W.2d 111,
116 (Minn. 1998); Luhr Bros. v. Dir. of Revenue, State
of Mo., 780 S.W.2d 55, 57 (Mo. 1989). This Court has
previously stated that establishing whether two businesses constitute a “unitary business” is “fundamental” to the determination of whether Idaho can
apportion the income of a foreign, wholly-owned subsidiary as if it was the income of the parent corporation:
[W]hether a number of business operations
having common ownership constitute a single
or unitary business or several separate businesses for tax purposes depends upon
whether they are of mutual benefit to one another and on whether each operation is dependent on or contributory to others. This
qualification, though not directly stated by
the statute’s literal language, is required by
the theory underlying apportionment statutes, i.e., that the business income of a unitary

App. 11
business operating in several states cannot be
precisely identified with particular states, and
by the constitutional requirement that there
must be some minimal connection between
the interstate business activities generating
the income and the state seeking to tax that
income.
Albertson’s, Inc., 106 Idaho 810, 811, 815 n.4, 683 P.2d
846, 847, 851 n.4 (1984) (internal citations and quotation marks omitted) (quoting Am. Smelting & Ref. Co.
v. Idaho State Tax Comm’n, 99 Idaho 924, 931, 592 P.2d
39, 46 (1979), vacated sub nom. Asarco Inc. v. Idaho
State Tax Comm’n., 445 U.S. 939 (1980) (overruling the
Idaho Supreme Court’s constitutional analysis but not
the statutory interpretation of the Idaho Code)).
Second, while the unitary-business test typically
arises in the constitutional context, Idaho Tax Administrative Rules have incorporated the unitary test as
one method to determine “business income” under
Idaho Code section 63-3027(a)(1):
Application of the functional test is generally
unaffected by the form of the property (for example, tangible or intangible property, real or
personal property). Income arising from an intangible interest, for example, corporate stock
or other intangible interest in a business or a
group of assets, is business income when the
intangible itself or the property underlying or
associated with the intangible is or was an integral, functional, or operative component to
the taxpayer’s trade or business operations.
Thus, while apportionment of income derived

App. 12
from transactions involving intangible property as business income may be supported by
a finding that the issuer of the intangible
property and the taxpayer are engaged in the
same trade or business, i.e., the same unitary
business, establishment of such a relationship
is not the exclusive basis for concluding that
the income is subject to apportionment. It is
sufficient to support the finding of apportionable income if the holding of the intangible interest served an operational rather than an
investment function of mere financial betterment.
IDAPA 35.01.01.333.08. Under this rule, “business
income” can be established by either the unitarybusiness test or by finding that the intangible interest
serves an operational function—rather than a passive
investment—as “an integral, functional, or operative
component to the taxpayer’s trade or business operations.” Id.
The U.S. Supreme Court, however, has rejected the
application of the operational-function test and the
unitary-business test as distinct and separate principles. MeadWestvaco Corp. ex rel. Mead Corp., 553 U.S.
at 29. In MeadWestvaco, Mead, an Ohio corporation
and wholly owned subsidiary of MeadWestvaco Corp.,
originally purchased an Illinois-based company that
specialized in inkjet printing technology for $6 million.
553 U.S. 16, 19–20 (2008). Mead renamed the inkjet
company Lexis. Id. at 20–21. Over the next 26 years,
Mead developed Lexis into an electronic research service. Id. at 20. Then, in 1994, Mead sold Lexis to a third

App. 13
party for $1.5 billion, collecting a gain of just over $1
billion. Id. Mead did not report the gain as business
income in Illinois. Id. Instead, Mead argued that the
gain was “nonbusiness income that should be allocated
to Mead’s domiciliary State, Ohio, under Illinois’ Income Tax Act.” Id. The State of Illinois argued that
the gain was business income subject to apportionment. Id. at 20-21. The trial court agreed with Illinois,
holding that the two companies were not a unitary
business but that Mead’s gain was still business income under Illinois tax laws. Id. at 23. The appellate
court affirmed on the basis of the state’s operationalfunction test. Id. However, the U.S. Supreme Court reversed, explaining that it was error to only consider the
operational-function test and remanded the case for a
determination on the unitary-business test. Id. at 32.
The Court explained:
[O]ur references to ‘operational function’ in
Container Corp. and Allied-Signal were not
intended to modify the unitary business principle by adding a new ground for apportionment. The concept of operational function
simply recognizes that an asset can be a part
of a taxpayer’s unitary business even if what
we may term a ‘unitary relationship’ does not
exist between the ‘payor and payee.’
MeadWestvaco Corp. ex rel. Mead Corp., 553 U.S. at 29.
Therefore, the “unitary business” question the district court addressed here was fundamental to both
the constitutional and statutory issues raised by Noell
Industries. As required by the Idaho Rules of Civil

App. 14
Procedure, the complaint provided ample citations to
statutory authority to lay the foundation for Noell Industries’ requested relief, and the pleading put the
Commission on notice of the claims brought against it.
Indeed, the unitary-business principle is “the linchpin
of apportionability in the field of state income taxation.” Mobil Oil Corp. v. Comm’r of Taxes of Vermont,
445 U.S. 425, 439 (1980). The Commission should reasonably have been aware of the argument’s inevitable
assertion under the broader business-income analysis,
as well as the constitutional inquiry into Idaho’s ability to tax Noell Industries, a Virginia corporation.
B. The district court did not err in finding that
Noell Industries’ gain from the sale of Blackhawk was nonbusiness income.
The Commission next contends that Noell Industries’ gain from the sale of Blackhawk qualifies as business income because the “acquisition and management
of Blackhawk, LLC constituted a necessary part of its
business operations.” The district court concluded that
the gain was not apportionable after analyzing both
the transactional and functional tests as laid out in
case law, the Idaho Code, and Idaho’s Income Tax Administrative Rules. The district court’s analysis is correct.
Section 63-3027 of the Idaho Code “contains rules
for determining the portion of a corporation’s total income from a multistate business which is attributable
to this state and therefore subject to Idaho’s income

App. 15
tax.” Albertson’s, Inc., 106 Idaho at 811, 683 P.2d at 847.
This portion of the Idaho Code is Idaho’s version of the
Uniform Division of Income for Tax Purposes Act
(UDITPA). Id. The statute divides a multistate corporation’s income into two categories: business income
and non-business income. Id. See also I.C. § 633027(a)(4); IDAPA 35.01.01.330. Business income is
apportioned to Idaho under specific statutory formulas
based on payroll, sales, and property, I.C. § 63-3027(i),
while non-business income is allocated to the taxpayer’s commercial domicile. I.C. § 63-3027(d)–(h). See
also Albertson’s, Inc., 106 Idaho at 811, 683 P.2d at 847.
Section 63-3027(a)(1) of the Idaho Code provides
two separate definitions for “business income.” The
first definition is the transactional test—“income arising from transactions and activity in the regular
course of the taxpayer’s trade or business.” The second
definition is the functional test—“income from the acquisition, management, or disposition of tangible and
intangible property when such acquisition, management, or disposition constitute integral or necessary
parts of the taxpayer’s trade or business operations.”
Union Pac. Corp. v. Idaho State Tax Comm’n, 136 Idaho
34, 38–39, 28 P.3d 375, 379–80 (2001) (quoting I.C.
§ 63-3027(a)(1)). See also IDAPA 35.02.02.332 through
333. Here, the Idaho Tax Commission is trying to apportion the income from a foreign holding company’s
sale of its wholly-owned subsidiary that conducted a
portion of its business in Idaho. Accordingly, we must
determine whether the gain qualifies as “business income” as defined in Idaho Code section 63-3027(a)(1)

App. 16
under either the (1) transactional test or (2) the functional test.
1. Transactional Test
The transactional test provides that business income is “income arising from transactions and activity
in the regular course of the taxpayer’s trade or business.” I.C. § 63-3027(a)(1); IDAPA 35.01.01.332.01. The
transaction or activity, however, “need not be one that
frequently occurs in the trade or business.” IDAPA
35.01.01.332.03. It is reasonable to conclude that
transactions are done “in the regular course of a trade
or business” where they “are customary in the kind of
trade or business being conducted or are within the
scope of what that kind of trade or business does.” Id.
In addition, “[i]ncome may be business income even
though the actual transaction or activity that gives
rise to the income does not occur in Idaho.” IDAPA
35.01.01.332.02.
The district court examined two cases from the
Midwest in reaching its decision wherein the respective appellate courts concluded that the gain arising
from a holding company’s sale of a subsidiary can qualify as business income if the holding company regularly engages in the buying and selling of subsidiaries;
however, a one-time sale does not qualify. Compare E.I.
DuPont De Nemours & Co. v. Indiana Dep’t of State
Revenue, 79 N.E.3d 1016, 1023 (Ind. T.C. 2017), with
PPG Indus., Inc. v. Dep’t of Revenue, 765 N.E.2d 34, 45
(Ill. App. 2002). Importantly, the Illinois and Indiana

App. 17
statutes at issue in these cases utilize similar language
to UDITPA and Idaho to define business income, including the term “regular” to describe the trade and
business operations that qualify as “business income”
under the transactional test. I.C. § 63-3027(a)(1); E.I.
DuPont De Nemours & Co., 79 N.E.3d at 1022 (quoting
Indiana Code § 6-3-1-20 (2001)); PPG Indus., Inc., 765
N.E.2d at 42 (quoting 35 ILL. COMP. STAT. 5/1501(a)(1)
(1994)).
On appeal, Noell Industries argues that it “does
not have a trade or business,” yet its tax returns list
“investment” as its business activity, as well as its
“product or service.” Because of this entry, the district
court concluded that Noell Industries is an “investment” company for the purposes of its transactionaltest analysis. The district court also found that Noell
Industries “was essentially a holding company or parent company to Blackhawk.” Under either business operation, Noell Industries does not appear to have
regularly engaged in the trade or business of buying
and selling subsidiary companies. Noell Industries
only held interests in two companies: Blackhawk and
another entity that leased real property to Blackhawk
within Virginia. It did not purchase or sell interests
over that seven year period except in the original purchase and sale of Blackhawk. Thus, Noell Industries’
primary function was holding its interests in the two
business entities over several years, relying primarily
on Blackhawk for its income. While the business operations “need not be one that frequently occurs in the
trade or business,” IDAPA 35.01.01.332.03, a one-time

App. 18
sale over a seven-year span does not constitute a “regular” trade or business.
2. Functional Test
The Commission argues that Noell Industries satisfies the functional test in two ways: first, its income
from the sale of Blackhawk “was income that arose
from property acquired as a necessary part of its business.” Second, the income from the gain of the sale “was
income that arose from property managed as a necessary part of its business.” We disagree.
The functional test provides that business income
is “income from the acquisition, management, or disposition of tangible and intangible property when such
acquisition, management, or disposition constitutes integral or necessary parts of the taxpayer’s trade or
business operations.” I.C. § 63-3027(a)(1). Rule 333.08
of Idaho’s Income Tax Administrative Rules provides
two methods for meeting the functional test: “business
income” can be established either by (a) finding that
the intangible interest serves an operational function—
rather than a passive investment—as “an integral,
functional, or operative component to the taxpayer’s
trade or business operations,” or (b) by meeting the
unitary-business test. IDAPA 35.01.01.333.08. Even
though these methods would appear to be independent
of each other, the U.S. Supreme Court has rejected the
notion that the operational-function test and unitarybusiness test are separate principles. MeadWestvaco

App. 19
Corp. ex rel. Mead Corp. v. Illinois Dep’t of Rev., 553 U.S.
16, 29-32 (2008). Therefore, we must apply both tests.
a. Operational or Passive Investment
Test
Income from intangible property qualifies as
“business income when the intangible property serves
an operational function as opposed to solely an investment function.” IDAPA 35.01.01.333.05. The court’s inquiry “focuses on whether the property is or was held
in furtherance of the taxpayer’s trade or business, that
is, on the objective characteristics of the intangible
property’s use or acquisition and its relation to the
taxpayer and taxpayer’s activities.” Id. However, the
“functional test is not satisfied where the holding of the
property is limited to solely an investment function as
is the case where the holding of the property is limited
to mere financial betterment of the taxpayer in general.” Id.
In American Smelting and Refining Co., this Court
addressed how to define business income where the
Idaho Tax Commission sought alleged tax deficiencies
against American Smelting and Refining Company
(ASARCO). Am. Smelting & Ref. Co., 99 Idaho at 92730, 592 P.2d at 42-45. ASARCO was a multistate and
multinational corporation engaged in mining, smelting, and refining activities. Id. at 927, 592 P.2d at
42. After an auditor “unitized” six corporations with
ASARCO—each a wholly owned subsidiary of
ASARCO—their incomes were combined for Idaho tax

App. 20
purposes and the State assessed against ASARCO
three years’ worth of tax deficiencies, plus interest. Id.
at 927–30, 592 P.2d at 42–45.
On appeal, the Court explained that the “’integral
or necessary parts of the taxpayers’ trade or business
operations’ refers to property which, though not absolutely essential to the conduct of the taxpayer’s business, contributes to and is identifiable with the
taxpayer’s trade or business operations.” Id. at 932,
592 P.2d at 47. Nevertheless,
in order for such income to be properly classified as business income there must be a more
direct relationship between the underlying
asset and the taxpayer’s trade or business.
The incidental benefits from investments in
general, such as enhanced credit standing
and additional revenue, are not, in and of
themselves, sufficient to bring the investment
within the class of property the acquisition,
management or disposition of which constitutes an integral part of the taxpayer’s
business operations. This view furthers the
statutory policy of distinguishing that income which is truly derived from passive investments from income incidental to and
connected with the taxpayer’s business operations.
Id. at 933, 592 P.2d at 48. Importantly, the Court recognized that a broad interpretation of this definition of
“business income” could render “all corporate investments . . . as property the acquisition, management
or disposition of which constitutes an integral or

App. 21
necessary part of its trade or business operations.” Id.
Yet “such an approach would include virtually all income as business income and would in effect emasculate the provisions of UDITPA which provide for the
allocation of income from specified tangible and intangible property.” Id. at 932, 592 P.2d at 47. The Court
then proceeded to examine the apportionability of
ASARCO’s dividends, interest income, and capital
gains from the sale of stocks. Id. at 936–37, 592 P.2d at
51–52.
Here, the district court found that Noell Industries
was merely a holding company. It held interests in only
two business entities: Blackhawk and a Virginia company that leased real property to Blackhawk. Once Noell Industries transferred its net assets to Blackhawk
in exchange for a majority interest, Noell Industries
ceased most—if not all—of its business activity, notwithstanding its representation as an “investment”
company on its tax returns. The 2010 sale of its interests in Blackhawk was a passive investment because
the sale was not “an integral, functional, or operative
component to the taxpayer’s trade or business operations.” IDAPA 35.01.01.333.08. Indeed, by selling
Blackhawk, Noell Industries lost its primary source of
income in exchange for the financial betterment of
$120 million. This sale was not conducted “in furtherance of the taxpayer’s trade or business,” which was
holding interests, but to discontinue it—i.e. discontinuing its interest in Blackhawk. As stated in the Income
Tax Administrative Rules: “The functional test is not
satisfied where the holding of the property is limited

App. 22
to solely an investment function as is the case
where the holding of the property is limited to mere
financial betterment of the taxpayer in general.”
35.01.01.333.05.
b. Unitary Business Test
Generally, “a State may not tax value earned outside its borders.” ASARCO Inc. v. Idaho State Tax
Comm’n, 458 U.S. 307, 315 (1982). However, a State
may “tax an apportioned share of the value generated
by the intrastate and extrastate activities of a multistate enterprise if those activities form part of a unitary business.” MeadWestvaco Corp. ex rel. Mead Corp.,
553 U.S. at 19 (internal quotation marks omitted). This
unitary-business principle is a constitutional creation
under both the Commerce and Due Process Clauses.
The Due Process Clause requires “some definite link,
some minimum connection, between a state and the
person, property or transaction it seeks to tax, as well
as a rational relationship between the tax and the values connected with the taxing State.” Id. at 24. The
Commerce Clause “forbids the States to levy taxes that
discriminate against interstate commerce or that burden it by subjecting activities to multiple or unfairly
apportioned taxation.” Id. (internal citations and quotation marks omitted). Together, these clauses impose
“distinct but parallel limitations on a State’s power to
tax out-of-state activities.” Id.
Determining whether a business is a single, unitary, or several separate businesses for tax purposes is

App. 23
required “by the theory underlying apportionment
statutes, I. e., [sic] that the business income of a unitary business operating in several states cannot be
precisely identified with particular states, and by the
constitutional requirement that there must be some
minimal connection between the interstate business
activities generating the income and the state seeking
to tax that income.” Am. Smelting & Ref. Co., 99 Idaho
at 931, 592 P.2d at 46. Idaho’s Income Tax Administrative Rules have incorporated the unitary test into the
business income analysis as a method of meeting the
functional test, IDAPA 35.01.01.333.08, as well as defining “trade or business” to mean “the unitary business of the taxpayer, part of which is conducted in
Idaho.” IDAPA 35.01.01.331.02.
Originally, the unitary-business test required
“unity of ownership, unity of operation, and unity of
use.” Albertson’s, Inc., 106 Idaho at 815, 683 P.2d at
851. More recently, the U.S. Supreme Court described
the “ ‘hallmarks’ of a unitary relationship as functional
integration, centralized management, and economies
of scale.” MeadWestvaco Corp. ex rel. Mead Corp., 553
U.S. at 30. See also IDAPA 35.01.01.341.02. The U.S.
Supreme Court also reiterated that “capital transactions can serve either an investment function or an operational function.” Id. at 29 (quoting Container Corp.
of Am., 463 U.S. at 180 n.19).
Idaho’s Income Tax Administrative Rules further
define a “unitary business” as “a single economic enterprise that is made up either of separate parts of a single business entity or of a commonly controlled group

App. 24
of business entities that are sufficiently interdependent, integrated and interrelated through their activities so as to provide a synergy and mutual benefit that
produces a sharing or exchange of value among them
and a significant flow of value to the separate parts.”
IDAPA 35.01.01.340.01. The Idaho rules also utilize
the same “hallmarks” from U.S. Supreme Court case
law to determine the existence of a unitary business:
functional integration, centralization of management,
and economies of scale, which “provide evidence of
whether the business activities operate as an integrated whole or exhibit substantial mutual interdependence.” IDAPA 35.01.01.341.02.
In Alberston’s, the Skaggs-Albertson’s partnership
formed two separate corporations in Texas, each of
which was a holding company “for their respective 50%
interests in the Skaggs-Albertson’s operation.” 106
Idaho at 812, 683 P.2d at 848. After examining the U.S.
Supreme Court case Container, Corp., of America v.
Franchise Tax Board, 463 U.S. 159 (1983), this Court
determined that Albertson’s and its Texas subsidiary
were a unitary business because of the close operational business relationship that existed between
them. Id. at 816–17, 683 P.2d at 852-53. The Idaho Supreme Court based this decision on several key facts
concerning the business operations:
In almost every respect Albertson’s operational relationship with Texas-Albertson’s
was as close as or greatly exceeded that which
existed between Container Corp. and its subsidiaries. . . . Every Texas-Albertson’s director

App. 25
and officer was an Albertson’s employee or
officer. Every decision made by Texas-Albertson’s was actually made by Albertson’s employees. In addition Albertson’s employees
performed other activities including keeping
books, tax return preparation, payment of officers and directors, and preparation of corporate meeting documents. The parent in
Container held or guaranteed half of the subsidiaries’ long term debt, and Albertson’s
furnished all of Texas-Albertson’s initial operating capital with no written agreements
providing for repayment of capital or interest
to Albertson’s.
Id. Effectively, it was a unitary business because the
parent company—Albertson’s—controlled most, if not
all, of the subsidiary’s operations. The subsidiary was
only a shell, a holding company, created in order to receive tax and liability benefits under Texas law. Id. at
812, 683 P.2d at 848.
The Commission cites to the Supreme Court of
Tennessee’s decision in Blue Bell Creameries, LP v.
Roberts, 333 S.W.3d 59 (Tenn. 2011) to explain why Noell Industries is a unitary business with Blackhawk.
Blue Bell is a Delaware limited partnership and Texasbased ice cream company that produces, sells, and distributes ice cream across multiple states. Id. at 62.
After Blue Bell gained capital from a one-time stock
transaction with its holding company, Tennessee’s Department of Revenue assessed taxes on the capital
gain because the stock transaction was “one part of a
reorganization of the business entities that own [Blue

App. 26
Bell Creameries, LP] and profit from the Blue Bell ice
cream business.” Id. The Supreme Court of Tennessee
held that the stock transaction served an operational
function because the taxpayer “acquired and sold the
1,131 shares of stock solely as part of the reorganization of the entities profiting from the business.” Id. at
70–71. The stock transaction did not diversify the business or “reduce[ ] risks associated with the ice cream
business.” Id. Rather, the reorganization and sale of
the stock “served to increase net gain from the ice
cream business.” Id. Thus, the Tennessee court concluded, Blue Bell’s income from the stock was unitary
with its ice cream business. Id.
In contrast to these cases, Arizona’s Board of Tax
Appeals decided a case similar to the situation here,
where a foreign corporation acquired an interest in an
Arizona-based partnership. Western Phoenix, N.V. v.
Arizona Dept. of Revenue, 1994 WL 143279, at *1 (Ariz.
Bd. Tax. App. 1994). The foreign corporation held no offices or employees in the U.S. and was not involved in
the partnership’s management. Id. The corporation
“had no activity other than owning the partnership interest.” Id. Yet when the corporation sold its interests
to another company, and allocated the gain of the sale
to Texas—where the acquisition’s sale and negotiations occurred—Arizona audited the foreign corporation and concluded income from the sale was allocable
business income. Id. Like here, the state taxing authority argued that the unitary-business test was inapplicable because the partnership business and foreign
corporation “[were] one and the same.” Id. at *2. The

App. 27
Arizona Board of Tax Appeals disagreed, holding that
the gain from the sale was not apportionable business
income because there was “no integration or interdependence of the basic operations” between the two
businesses. Id. at *3. Indeed, the foreign corporation
held “no real ‘operation’ ”—“its sole business was its investment in the partnership.” Id. at *3.
As the dissent points out, the 78.54% membership
interest held by Noell Industries in Blackhawk conclusively determines that they are part of a commonly
controlled group. IDAPA 35.01.01.344.02. Nevertheless, the situation is different from Blue Bell and the
reverse of what occurred in Albertson’s. Rather than
dealing with a parent company with full control of the
subsidiary holding company, Noell Industries is a parent holding company with no shared control or operations over Blackhawk. Noell Industries shared no
centralized management, oversight, or headquarters
with Blackhawk. Indeed, Noell Industries held no employees, payroll, or offices at all. While the companies
utilized the services of the same accounting and legal
firms, they did not share resources or employees. The
only transactions between the companies consisted of
the 2003 transfer of assets to Blackhawk, regular income from Blackhawk for the held interests, and the
2010 sale of those interests. This high-level separation
of the companies—combined with Noell Industries’
only role as a shell holding company—showcases substantial independence rather than the level interdependence required to manifest unity.

App. 28
The primary common denominator between the
two companies was their foundation by Mike Noell, but
his presence at both companies alone does not suggest
the level of oversight that the unitary principle requires for functional integration, centralized management, and economies of scale. As Blackhawk’s
President and CEO—indeed, as the founder of both
companies—Mike Noell certainly provided experience
and oversight, as the dissent reminds this Court. Yet
the record still showcases that Mike Noell was one
voice of a six-member management team, and a “high
level executive” who did not manage Blackhawk’s dayto-day operations. Daily business operations were handled in an Executive Director of Operations and Vice
President of Blackhawk. Sales decisions were handled
by an appointed team. Marketing Decisions fell to the
purview of the Vice President of Marketing, and so on.
Blackhawk’s wide range of officers and employees “had
no involvement with Noell Industries.” Thus, there was
no centralized management.
In addition, while Noell Industries occupied the
same role and business functions as Blackhawk prior
to the 2003 reorganization, Blackhawk’s creation relieved Noell Industries of those responsibilities. In the
2003 reorganization, Noell Industries effectively
handed over the reins to Blackhawk to make, sell, and
distribute tactical and combat gear. Noell Industries
could have retained control, and oversight over Blackhawk, but it did not. Control and management of
Blackhawk products passed from Noell’s wholly-owned
corporation to the multi-manager managed limited

App. 29
liability company—Blackhawk. Like in Western Phoenix, N.V., Noell Industries’ sole business between 2003
and 2010 was holding its investment in Blackhawk.
Because this type of gain does not meet the definition of “business income” under either the transactional test or functional test (including the unitary
business test), we affirm the district court’s conclusion
that the gain from selling Blackhawk was nonbusiness
income under Idaho Code section 63-3027. The Commission argues that this decision will open a tax loophole to companies, permitting them to dodge taxes
through the creation of sham shell entities. We disagree. Our decision rests on a fact-intensive inquiry
based on the extensive—and largely undisputed—findings of the district court. Moreover, this is not a case of
a corporation dodging its tax obligations. Noell Industries reported the income from the sale to both Idaho
and Virginia, but it only paid taxes on the gain as
“business income” to Virginia because that was its commercial domicile. There has been no fraud or subterfuge shown in the record. This case clearly concerns a
passive investment, the taxation of which is not apportionable to Idaho.
IV.

CONCLUSION

For the reasons set forth above, we affirm the judgment of the district court. Costs are awarded to Noell
Industries as the prevailing party.
Justices BRODY and BEVAN CONCUR.

App. 30
STEGNER, J., dissenting.
I respectfully dissent. I agree with the majority’s
conclusion that “[t]his case concerns a straightforward
issue of tax law: whether the gain from the sale of an
ownership interest in a legal entity constituted ‘business income’ under Idaho Code section 63-3027.” However, I diverge from the majority’s conclusion that the
sale by Noell Industries, Inc. (Noell Industries), of its
interest in Blackhawk Industries Products Group Unlimited, LLC (Blackhawk LLC), did not constitute
business income attributable to Noell Industries.
This case was decided on cross motions for summary judgment. Summary judgment is appropriate if
the movant shows “that there is no genuine dispute as
to any material fact and the movant is entitled to judgment as a matter of law.” I.R.C.P 56(a). Here, based
on the undisputed facts, Noell Industries was not entitled to summary judgment as a matter of law. Rather,
the undisputed facts show that Noell Industries and
Blackhawk LLC constituted a unitary business. Further, the sale of Blackhawk LLC constituted business
income under the functional test. Accordingly, summary judgment should not have been granted to Noell
Industries. Instead, it should have been granted in favor of the Tax Commission. I would reverse the grant
of summary judgment, and remand the case for a determination of Noell Industries’ tax liability.

App. 31
A. Background of Noell Industries and Blackhawk LLC.
In 1993, Mike Noell incorporated Blackhawk Industries, Inc., in Virginia to develop and sell combat
and tactical gear. (Blackhawk Industries, Inc., was renamed Noell Industries, Inc., in 2010. In order to avoid
confusing Blackhawk Industries, Inc., with the similarly named Blackhawk LLC, Noell Industries will be
used to refer to both Blackhawk Industries, Inc., and
its successor Noell Industries.) The company was inspired by Noell’s service as a U.S. Navy SEAL. In 2003,
Mike Noell transferred the net assets of Noell Industries to a new company of his creation, Blackhawk
LLC, in exchange for a 78.54% ownership interest in
Blackhawk LLC. The remaining ownership (21.46%)
was transferred to persons other than Noell Industries.
Mike Noell at the time and throughout these proceedings was President and Chief Executive Officer (CEO)
of Blackhawk LLC. He was also part of a six-member
management team. While Noell Industries bears Mike
Noell’s name, Blackhawk LLC was his brainchild.
Blackhawk LLC is a Virginia limited liability company which operated in multiple states, including
Idaho. In 2004, Blackhawk LLC established a physical
presence in Idaho when it purchased and developed
real property, commenced sales of its products, and
hired employees here. Then, in 2007, Blackhawk LLC
leased a factory in Boise to serve as its “operation center” for the West Coast. The Boise factory was one of
four U.S. factories that produced duty gear, body armor,
holsters, and other outdoor and hunting products. By

App. 32
2010, Blackhawk LLC “operated in substantially all of
the states” and held approximately $20 million worth
of real and personal property in Idaho.
Blackhawk LLC was the company that manufactured and sold the combat and tactical gear designed
as a result of the vision and oversight of Mike Noell.3
At the same time, Noell Industries, which was solely
owned by Mike Noell, held a super-majority interest in
Blackhawk LLC. Virtually all of Noell Industries’ income came directly from Blackhawk LLC. For example,
in 2009, Blackhawk LLC “generated $10,496,500 in income for Noell Industries.” The annual income generated by Blackhawk LLC was recognized as business
income as opposed to passive income.
In 2010, Noell Industries sold its 78.54% interest
in Blackhawk LLC for a net gain of $120 million. Noell
Industries reported the gain from the sale on its 2010
Idaho tax return, but did not apportion any of the gain
to Idaho and reported “nearly all of the gain to goodwill.” Idaho’s state tax auditors, however, concluded
that the gain was “business income” pursuant to Idaho
Code section 63-3027, and the Idaho Tax Commission
affirmed this decision. In its initial Notice of Deficiency
Determination (“NODD”), the Tax Commission’s Income Tax Audit staff calculated the total tax owed to
be $4,481,875. The Tax Commission later reduced that
3

According to the Business Activity Questionnaire prepared by
Noell Industries’ tax advisors, Mike Noell, as CEO and President
of Blackhawk, was “responsible for directing the vision of Blackhawk Products and overseeing all aspects of Blackhawk Products,
with a particular focus on product development.”

App. 33
amount to $1,423,520 after removing the penalty assessments in its final decision of November 8, 2017.
B. Noell Industries and Blackhawk LLC constitute a unitary business because the two
companies were part of a common control
group and had functional integration and
centralized management.
It is evident that Noell Industries and Blackhawk
LLC constitute a unitary business. There is a constitutional doctrine that a state may not tax a corporation’s
income unless there is “some definite link” or “some
minimum connection” between the state and the corporation it seeks to tax. Miller Bros. v. Maryland, 347
U.S. 340, 344–45 (1954). Without these minimum contacts, the state cannot tax the corporation’s income. See
id. The unitary business principle is a doctrine which
allows states to determine whether there are sufficient
contacts with the state in order to have business income apportioned to that state. Generally,
if a taxpayer is carrying on a single “unitary”
business within and without the state, the
state has the requisite connection to the outof-state activities of the business to justify inclusion in the taxpayer’s apportionable tax
base of all of the income generated by the combined effect of the out-of-state and in-state activities.
Walter Hellerstein, State Taxation of Corporate Income
from Intangibles: Allied-Signal and Beyond, 48 Tax L.
Rev. 739, 746 (1993). Accordingly, in order for business

App. 34
income to be apportioned to Idaho, it must first be ascertained whether Noell Industries and Blackhawk
LLC constitute a unitary business to satisfy this due
process demand. See IDAPA 35.01.01.340.
Pursuant to Idaho’s regulations, a unitary
business is a single economic enterprise that
is made up either of separate parts of a single
business entity or of a commonly controlled
group of business entities that are sufficiently
interdependent, integrated and interrelated
through their activities so as to provide a synergy and mutual benefit that produces a sharing or exchange of value among them and a
significant flow of value to the separate parts.
Id.
1. Noell Industries and Blackhawk LLC are part
of a commonly controlled group.
First, “separate corporations can be part of a unitary business only if they are members of a commonly
controlled group.” IDAPA 35.01.01.344. A “commonly
controlled group” includes:
A parent corporation and any one (1) or more
corporations or chains of corporations, connected through stock ownership (or constructive ownership) with the parent, but only if:
i. The parent owns stock possessing
more than fifty percent (50%) of the voting
power of a[t] least one (1) corporation[.]
IDAPA 35.01.01.344.02.

App. 35
There can be little doubt that Noell Industries and
Blackhawk LLC were both “commonly controlled” as
that term is defined in the regulations governing this
matter. It is undisputed that Noell Industries, the parent company, owned 78.54% of Blackhawk LLC. Consequently, based on the applicable regulations, Noell
Industries and Blackhawk LLC are part of a commonly
controlled group.
2. Noell Industries and Blackhawk LLC are
functionally integrated and have a centralized management.
The Idaho Tax Commission’s regulations provide
additional principles for determining the existence of
a unitary business. See IDAPA 35.01.01.342. Here, Noell Industries and Blackhawk LLC are functionally integrated and have centralized management.
First, Noell Industries and Blackhawk LLC are
functionally integrated. An example of functional integration includes:
Transfers or pooling of technical information
or intellectual property, such as patents, copyrights, trademarks and service marks, trade
secrets, processes or formulas, know-how, research, or development, provide evidence of
functional integration when the matter transferred is significant to the business’ operations.
IDAPA 35.01.01.342.01.c (italics added). There is no
question that Mike Noell, the creator of both these

App. 36
enterprises, provided the “know-how” for their mutual
success.
Second, Noell Industries and Blackhawk LLC
have centralized management.
Centralization of management exists when
directors, officers, or other management employees jointly participate in the management
decisions that affect the respective business
activities and that may also operate to the
benefit of the entire economic enterprise. Centralization of management can exist where
the centralization is effected from a parent entity to a subsidiary entity to a parent entity,
from (1) subsidiary entity to another, from (1)
division within a single business entity . . .
even when day-to-day management responsibility and accountability has been decentralized, so long as the management has an
ongoing operational role with respect to the
business activities. An operational role can be
effected through mandates, consensus building, or an overall operational strategy of the
business, or any other mechanism that establishes joint management.
IDAPA 35.01.01.342.02. An example of evidence that
can establish centralized management includes evidence that “common officers participate in the decisions relating to the business operations of the
different segments.” Id. Additionally, centralized management exists “when management shares or applies
knowledge and expertise among the parts of the business.” Id.

App. 37
Mike Noell was the sole owner of Noell Industries,
and the CEO and President of Blackhawk LLC. According to Noell Industries’ tax advisors, Mike Noell
was “responsible for directing the vision of Blackhawk
[LLC] and overseeing all aspects of Blackhawk [LLC],
with a particular focus on product development.” In
other words, Mike Noell’s participation in the performance of Blackhawk LLC was anything but passive.
He was intimately involved in the decision-making of
both Noell Industries and Blackhawk LLC. As a practical matter and as a legal matter, no one individual
exercised more control than Mike Noell over these two
entities. As a result, there was a “centralization of
management” as that phrase is used in the applicable
regulations. Consequently, given the regulations that
govern whether an entity is a unitary business, the fact
that Mike Noell occupied these two critical executive
positions strongly supports the conclusion that a unitary business existed between Noell Industries and
Blackhawk LLC.
The district court concluded that Noell Industries
and Blackhawk LLC lacked unity. The district court
concluded that the two businesses were not functionally integrated and did not have any centralized management. However, based on the undisputed facts
noted above, the district court’s conclusions were
clearly erroneous. The two companies were functionally integrated due to shared know-how and oversight
from Mike Noell. Blackhawk LLC is a necessary part
of Noell Industries. Further, the two companies shared
centralized management, particularly Mike Noell. The

App. 38
conclusion that Noell Industries and Blackhawk LLC
constitute a unitary business is inescapable. The next
question which must be answered is whether the sale
of its interest in Blackhawk LLC constituted business
income attributable to Noell Industries.
C. The sale of the interest in Blackhawk LLC
constituted business income through the
functional test supplied by statute.
I begin with the district court’s correct articulation
of the presumption and burden of proof as they relate
to the application of the functional test, which is critical to this analysis. As noted by the district court
[u]nder the functional test, “business income”
includes income from “the acquisition, management, or disposition of tangible and intangible property when such acquisition,
management, or disposition constitutes integral or necessary parts of the taxpayer’s trade
or business operations.” I.C. § 63-3027(a)(1).
Importantly, “gains or losses and dividend and
interest income from stock and securities of
any foreign or domestic corporation shall be
presumed to be income from intangible property, the acquisition, management, or disposition of which constitutes an integral part of
the taxpayer’s trade or business. I.C. § 633027(a)(1). This presumption may only be
overcome by “clear and convincing evidence to
the contrary.” Id. Thus the court must presume the gain realized by Noell Industries on
its sale of its interest in Blackhawk LLC

App. 39
satisfies the functional test unless Noell Industries presents clear and convincing evidence that it does not.
While the district court (and on appeal, the majority)
are obligated to presume the gain recognized by Noell
Industries satisfied the functional test (and as a result
that the gain would be taxable by Idaho) it is important to remember this case was decided on summary judgment. This means that in order to decide the
case in favor of Noell Industries, the district court was
required not only to determine that there were no genuine questions of material fact, but to do so applying
an increased burden of proof, “clear and convincing evidence.”4 See I.R.C.P. 56(a). This is an extraordinary
showing at summary judgment.5 Given the clear and
convincing burden of proof Noell Industries bore, it
would require a substantial showing for Noell Industries to be granted summary judgment. For the reasons
outlined in this opinion, not only was this showing not
4

This heightened burden is only applicable when the moving
party is the party that has the burden of proof at trial. In contrast,
when the nonmoving party carries the burden of proof at trial, our
case law makes clear that on a motion for summary judgment we
do not consider whether a party has produced clear and convincing evidence, but only “whether the evidence is sufficient to create
a triable issue of fact.” Country Cove Dev., Inc. v. May, 143 Idaho
595, 599, 150 P.3d 288, 292 (2006) (citation omitted). However,
for the party who carries the burden of proof at trial to be entitled
to judgment as a matter of law, the sufficiency of the evidence
would logically have to satisfy the burden of proof. See I.R.C.P.
56(a).
5
The clear and convincing evidence standard only applies to the
functional test, not the unitary business test.

App. 40
made or supported by the record, the evidence in the
record supports the conclusion that the sale of Blackhawk LLC constituted business income under the
functional test. Accordingly, the Tax Commission’s motion for summary judgment should have been granted,
and Noell Industries’ motion for summary judgment
should have been denied.
Idaho Code section 63-3027 provides two separate
definitions for business income. The relevant definition
here is known as the functional test. This includes “income from the acquisition, management, or disposition
of tangible and intangible property when such acquisition, management, or disposition constitute integral or
necessary parts of the taxpayer’s trade or business operations.” Union Pac. Corp. v. Idaho State Tax Comm’n,
136 Idaho 34, 38, 28 P.3d 375, 379 (2001) (quoting I.C.
§ 63-3027(a)(1)).
The applicable regulations provide guidance on
the application of the functional test to determine
whether certain commercial activity is business income.
Application of the functional test is generally
unaffected by the form of the property (for example, tangible or intangible property, real or
personal property). Income arising from an intangible interest, for example, corporate stock
or other intangible interest in a business or a
group of assets, is business income when the
intangible itself or the property underlying or
associated with the intangible is or was an integral, functional, or operative component to

App. 41
the taxpayer’s trade or business operations.
Thus, while apportionment of income derived
from transactions involving intangible property as business income may be supported by
a finding that the issuer of the intangible
property and the taxpayer are engaged in the
same trade or business, i.e., the same unitary
business, establishment of such a relationship
is not the exclusive basis for concluding that
the income is subject to apportionment. It is
sufficient to support the finding of apportionable income if the holding of the intangible interest served an operational rather than an
investment function of mere financial betterment.
IDAPA 35.01.01.333.08. Notably, the conclusion that
Noell Industries and Blackhawk LLC constitute a unitary business helps support the conclusion that this
sale was business income. See id. (“[A]pportionment of
income derived from transactions involving intangible
property as business income may be supported by a
finding that the issuer of the intangible property and
the taxpayer are engaged in the same trade or business, i.e., the same unitary business[.]”). However, evidence of a unitary business alone is generally
insufficient evidence. See id. There must be more. Another method of satisfying the functional test is a finding that “the holding of the intangible interest served
an operational rather than an investment function of
mere financial betterment.” Id.

App. 42
The regulations provide guidance on the treatment of operational functions and investment functions.
Under the functional test, income from intangible property is business income when the intangible property serves an operational
function as opposed to solely an investment
function. The relevant inquiry focuses on
whether the property is or was held in furtherance of the taxpayer’s trade or business,
that is, on the objective characteristics of the
intangible property’s use or acquisition and
its relation to the taxpayer and the taxpayer’s
activities. The functional test is not satisfied
where the holding of the property is limited to
solely an investment function as is the case
where the holder of the property is limited to
mere financial betterment of the taxpayer in
general.
IDAPA 35.01.01.333.05. Passive income, or investment
income, generally mean “income derived from a business, rental, or other income-producing activity that
the earner does not directly participate in or has no
immediate control over.” Passive income, BLACK’S LAW
DICTIONARY (11th ed. 2019). Business income, as used
in this context, means income from any activity that
meets the “transactional test” or the “functional tests,”
as defined by the Tax Commission’s regulations. See
IDAPA 25.01.01.331.01. Neither the transactional test
nor the functional test are satisfied by mere passive
investment.

App. 43
Noell Industries argues that it was merely a passive investor in Blackhawk LLC. Notably, in all the
years leading up to Noell Industries’ sale of Blackhawk
LLC, Noell Industries recognized the gain from Blackhawk LLC’s activities as “business income.” However,
Mike Noell was not a passive investor in Blackhawk
LLC. He was the acting President and CEO of Blackhawk LLC. Additionally, he was responsible for oversight of product development for Blackhawk LLC. The
income realized by Blackhawk LLC was, in a very real
way, dependent on Mike Noell’s contribution to that entity as its spiritual father and its CEO and President.6
Were Mike Noell not the CEO and President of Blackhawk LLC, the investment by Noell Industries in

6

In order to reach its decision, the district court substantially
minimized Mike Noell’s significant management responsibility at
Blackhawk LLC. As noted, Mike Noell was both the CEO and
President of Blackhawk LLC. While it is true that other managers
played significant managerial roles in Blackhawk LLC, to reach
the result the district court reached, it had to ignore the fact that
Mike Noell was both the President and CEO of Blackhawk LLC.
Under the functional test, business income need not be
derived from transactions or activities that are in the
regular course of the taxpayer’s own particular trade or
business. It is sufficient, if the property from which the
income is derived is or was an integral, functional, or
operative component used in the taxpayer’s trade or
business operations, or otherwise materially contributed to the production of business income of the trade
or business, part of which trade or business is or was
conducted within Idaho.
IDAPA 35.01.01.333.03. It is not possible to conceive of Blackhawk LLC achieving the success it did without Mike Noell at its
helm. Yet that is precisely what the district court did.

App. 44
Blackhawk LLC might have been correctly characterized as a “passive investment.” However, with Mike
Noell occupying those two roles, it’s impossible to conclude the income was passive.
Applying the functional test to these facts yields
the conclusion that the sale of Blackhawk LLC constituted business income to Noell Industries. In order for
Noell Industries to avoid its apportionable Idaho income tax, it would be necessary to find that the functional test does not apply. If Mike Noell had sold his
interest to an entity other than one controlled by him,
I might be persuaded that the apportionable income
realized by Noell Industries is not due. However, given
the structure of the entities, the presumption that the
functional test is satisfied, and the obligation of Noell
Industries to prove by clear and convincing evidence
that the functional test does not apply, I cannot concur
in the majority’s analysis.7

7

One of the ways in which to analyze whether Noell Industries
owes tax on the gain it realized on the sale of Blackhawk LLC, is
to consider whether the gain would be taxable if Noell Industries
did not exist. In other words, assume the 78.54% interest in
Blackhawk LLC was owned by Mike Noell in his individual capacity. There can be little doubt under these facts that Mike Noell
would owe Idaho income tax. The gain would be attributable to
him because he was the CEO and President of Blackhawk LLC.
The gain would be the result of his work as CEO and President
and the creative genius behind product development. If Mike Noell were somehow unconnected with Blackhawk LLC, and its success was in no way connected to him, he would not owe Idaho
income tax. (In other words, it’s instructive to view Noell Industries as a “straw man.” Without this “straw man” existing between Mike Noell and Blackhawk LLC, there would be no

App. 45
D. Conclusion.
To recap, Noell Industries was granted summary
judgment even though it had the burden to prove that
the sale of Blackhawk LLC did not satisfy the functional test by clear and convincing evidence. I think the
district court erred in granting summary judgment to
Noell Industries, not only because of the heightened
burden of proof Noell Industries bore to prove that the
functional test was not satisfied, but also because the
existing statutes and regulations governing this transaction lead to a conclusion contrary to that drawn by
the district court. I would reverse, and grant summary
judgment in favor of the Tax Commission because the
undisputed facts demonstrate that the gain realized by
Noell Industries qualifies as business income that can
be apportioned to Idaho. However, a question of fact
question regarding the taxability of the income. Yet, the district
court (and the majority) concludes that because there is now an
intermediary entity between Mike Noell and Blackhawk LLC,
somehow the gain that would otherwise be taxable is magically
not taxable.) This is not how the tax code operates. There is symmetry to the tax code preventing a taxpayer from creating a straw
man which would enable the avoidance of tax. The investment
Noell Industries made in Blackhawk LLC, while characterized
solely as an investment, is not merely a passive investment because of Mike Noell’s active management of Blackhawk LLC. Noell Industries’ gain is not passive income any more than it was
before the sale of Blackhawk LLC. Rather, it is business income
because of Mike Noell’s contribution to Blackhawk LLC’s success.
However, Noell Industries seeks to avoid imposition of Idaho
state income tax because it maintains that Noell Industries only
held ownership in Blackhawk LLC as a passive investor. Noell
Industries’ argument only makes sense if Mike Noell’s significant
contribution to Blackhawk LLC as its CEO and President is disregarded.

App. 46
remains as to Noell Industries’ tax liability. Accordingly, I would remand the case for a determination of
that liability. For these reasons, I respectfully dissent.
Chief Justice BURDICK concurs in the dissent.

App. 47
IN THE DISTRICT COURT OF
FORTH JUDICIAL DISTRICT OF THE STATE OF
IDAHO, IN AND FOR THE COUNTY OF ADA
NOELL INDUSTRIES, INC., Case No.
a Virginia corporation,
CV01-18-02355
Plaintiff,
-vsIDAHO STATE TAX
COMMISSION,
Defendant.

MEMORANDUM
DECISION AND
ORDER ON PARTIES’
CROSS-MOTIONS
FOR SUMMARY
JUDGMENT
(Filed Feb. 15, 2019)

I.

INTRODUCTION

Noell Industries, Inc. is a Virginia corporation. In
2010, Noell Industries sold its 78.54% interest in
Blackhawk Industries Products Group Unlimited, LLC
(“Blackhawk LLC”), a Virginia limited liability company that operated throughout the U.S., including in
Idaho. Noell Industries reported its gain from the sale
on its 2010 Idaho tax return. However, reasoning that
the gain did not qualify as “business income” under the
allocation and apportionment provisions of I.C. § 633027, Noell Industries did not apportion any part of the
gain to Idaho. The Tax Audit staff of the Idaho State
Tax Commission (“Commission”) concluded that the
gain was “business income” for which Noell Industries
owed taxes for the 2010 tax year. The Commission affirmed. Using an alternative method of income apportionment that it believed fairly represented Noell

App. 48
Industries’ business activities in Idaho, the Commission calculated the tax owing to be $1,140,489, exclusive of penalties. It is from this Commission decision
Noell Industries now appeals.
The parties submitted cross-motions for summary
judgment on the issue of whether Idaho has authority
to tax the gain on Noell Industries’ sale of its interest
in Blackhawk LLC. In addition, the Commission seeks
summary judgment on the issue of whether its alternative method of apportionment was reasonable. Relying on the declaration of its expert, David Chase, Noell
Industries contends there is a question of fact as to the
reasonableness of the alternative method because it
fails to properly account for the goodwill aspect of
Blackhawk LLC’s sales price. The Commission seeks to
strike Mr. Chase’s declaration on grounds that Mr.
Chase was not previously disclosed by Noell Industries
as an expert.
A hearing on the cross-motions for summary judgment and the motion to strike was held on November
13, 2018. The Court ordered supplemental briefing and
took the motions under advisement after the parties
submitted their replies to the supplementation. The
Court concludes the gain realized by Noell Industries
on the sale of interest in Blackhawk LLC is not “business income” under I.C. § 63-3027 and, therefore, not
subject to apportionment to Idaho.

App. 49
II.

STANDARD

Summary judgment is proper where there is no
genuine issue of material fact and the moving party is
entitled to judgment as a matter of law. Rule 56(c).
When hearing cross motions for summary judgment,
and when the Court is to be the finder of fact at trial,
the Court may enter summary judgment even if the
Court can draw conflicting inferences from the presented facts. Williams v. Computer Resources, Inc., 123
Idaho 671, 673 (1993). While the Court must still view
conflicting evidence in favor of the non-moving party,
the Court may draw inferences from the uncontroverted facts which it deems to be the most probable
rather than drawing all inferences in favor of the nonmoving party. Argyle v. Slemaker, 107 Idaho 668 (Ct.
App. 1984); Loomis v. City of Hailey, 119 Idaho 434
(1991).
When a taxpayer appeals a determination made
by the Commission by filing a complaint against it,
“[t]he case is to proceed as a de novo bench trial.” Parker v. Idaho State Tax Commission, 148 Idaho 842, 845
(2010). In such matters, the “deficiency determination
issued by the Commission is presumed to be correct,
and the burden is on the taxpayer to show that the
Commission’s decision is erroneous.” Id.

App. 50
III. FACTS
In seeking summary judgment, both parties rely
on the facts presented in the Tax Commission’s decision giving rise to the instant appeal, to wit:1
Michael M. Noell is Petitioner’s founder and
president. He is also a former Navy SEAL. It
was during his service as a SEAL that he decided to start a business to make tactical and
combat gear. The inspiration to start this
business came when he was operating inside
Northern Iraq. Mr. Noell was carrying a large
amount of gear in a pack through an enemy
minefield. The pack failed, dumping the gear
onto the mine-ridden ground. Mr. Noell remarked to a fellow operator, ‘If I get out of this
one alive, I will make this stuff the way it
needs to be built so none of my buddies have
to go through this.’ Mr. Noell formed Petitioner to do just this; starting in his garage,
Mr. Noell began designing and manufacturing
gear and packs that were more robust.
Mr. Noell formed Petitioner in 1993 and used
Petitioner from 1993 through 2003 to manufacture and sell tactical and combat gear. Mr.
Noell incorporated Petitioner under Virginia
law on February 12, 1993, as Blackhawk Industries, Inc. Starting on January 1, 2001, and
for all times relevant to this matter, Petitioner
has been an S corporation.
1

References in the following excerpt to “Petitioner” mean Noell
industries. Further, the footnotes added by the Commission citing
to supporting documents have been omitted.

App. 51
On January 1, 2004, Mr. Noell directed Petitioner to contribute its net assets to Blackhawk LLC, a limited liability company formed
on December 1, 2003. In exchange, Petitioner
received a controlling, 78.54% membership interest in Blackhawk LLC. Following this
transaction, Mr. Noell continued to direct the
vision of his business. He served as Blackhawk LLC’s President and CEO. Just as with
Petitioner, Mr. Noell directed the vision of
Blackhawk LLC and oversaw all aspects of
Blackhawk LLC with a particular focus on
product development.2
2

References to Mr. Noell’s role in Blackhawk LLC were derived
from a statement provided to the Commission by Noell Industries’
accounting firm stating, in part: “As President & CEO, [Michael
Noell] is responsible for directing the vision of [Blackhawk LLC]
and overseeing all aspects of Blackhawk LLC, with a particular
focus on product development.” Aff. Nielson, Exh G (Oct. 16,
2018). In its briefing, the Commission—likely relying on the foregoing statement—described Mr. Noell as “direct[ing] the daily operations” of Blackhawk LLC through Noell Industries. Amend.
Memo ISO MSJ, p. 12. Noell Industries responded by submitting
the declaration of Mr. Noell, who, as described herein, explained
the management structure of Blackhawk LLC, pointing out that
he did not direct its daily operations. Second Decl. M. Noell (Oct.
20, 2018). Both parties question whether Mr. Noell’s declaration
creates a question of fact as to the extent of his role in management and operations of Blackhawk LLC. However, the Court does
not find the declaration to be contradictory to the accounting
firm’s statement at all. That Mr. Noell “directed the vision of
Blackhawk LLC and oversaw all aspects of Blackhawk LLC with
a particular focus on product development” does not ipso facto
mean that he directed its daily operations. As CEO, Mr. Noell can
direct the vision of Blackhawk LLC and oversee its various aspects without “directing” the daily operations and management.
The Court views Mr. Noell’s declaration as simply fleshing out a

App. 52
Starting in 2004, Blackhawk LLC began reporting a physical presence in Idaho. From
2004 through 2006, Blackhawk LLC had
property, payroll, and sales in Idaho. This
presence expanded in 2007 when Blackhawk
LLC leased a “100,000 square foot factory in
Boise, Idaho.” This factory served as Blackhawk LLC’s “West Coast operation center.”
Blackhawk LLC stated that this facility
would “shorten the time-to-market” of its
products and would “reduc[e] production lead
times.” Blackhawk LLC used this Idaho factory for assembling, warehousing, and shipping its products. Blackhawk LLC maintained
the Idaho factory through the Petitioner’s
2010 sale of Blackhawk LLC.
For taxable years 2004 through 2009, Blackhawk LLC passed through its income to Petitioner who paid Idaho tax on behalf of Mr.
Noell. From 2004 through 2009, Petitioner
treated the income generated by Blackhawk
LLC as Petitioner’s business income.
In 2010, Mr. Noell directed Petitioner to sell
its interest in Blackhawk LLC for a net gain
of nearly $120 million. Of this income, Petitioner attributed nearly all of the gain to goodwill. Despite its history of treating income
derived from Blackhawk LLC as business income, Petitioner—when applying the allocation and apportionment provisions found in
more general statement of his role with Blackhawk LLC. Thus,
the Court does not find there to be a question of fact as to Mr.
Noell’s role in Blackhawk LLC.

App. 53
Idaho Code § 63-3027—treated the income it
derived from the sale of Blackhawk LLC as
nonbusiness income and did not include the
income in its calculation of Idaho taxable income. Likewise, Petitioner excluded the receipts related to the sale of Blackhawk LLC
from its Idaho apportionment factor calculation.
For taxable year 2010, Audit primarily reviewed Petitioner’s treatment of income and
receipts from its sale of Blackhawk LLC. Audit also adjusted Petitioner’s Idaho sales factor numerator to include the amount of
Blackhawk LLC’s out-of-state sales that
should be “thrown back” to Idaho and treated
as Idaho sales. Audit required Petitioner to include a substantial amount of sales Blackhawk LLC made to other states as Idaho
sales. On March 27, 2015, Audit issued a Notice of Deficiency Determination (Notice) to
Petitioner for the 2010 taxable year. Then, on
May 27. 2015, Petitioner filed a timely protest
of the Notice.3
In addition, the parties provide the following references to the record:
•

3

Upon its formation in 2003, the ownership units of
Blackhawk LLC that were not transferred to Petitioner were transferred to other persons.4

Tax Comm. Decision (“Order”), pp. 2-5, attached as Exh A to
Decl. Nielson (Oct. 16, 2018).
4
Decl. David Chase, Jr., ¶ 2 (Oct. 30, 2018).

App. 54
•

From its formation until 2009, Mr. Noell owned
100% of Noell Industries. In 2009, Mr. Noell conveyed about one-third of his interest in Noell Industries to a grantor-retained annuity trust
organized by Mr. Noell.5

•

In the years following the 2004 reorganization, the
activities of Noell Industries were limited to owning the Blackhawk LLC interest and owning an
interest in a Virginia business which leased real
property to Blackhawk LLC in Virginia, but the
lease terms were at market. On its 2010 U.S. Income Tax Return, Noell Industries represented
that its “business activity” was investment and its
“produce or service” was investment. Noell Industries never owned any property in Idaho. Noell Industries did not have any employees from the time
of Blackhawk LLC’s formation until its sale in
2010, and Noell Industries did not share any assets with Blackhawk LLC, did not provide financing or other services to Blackhawk LLC, and did
not share any expenses with Blackhawk LLC.
Blackhawk LLC operated in substantially all of
the states at the time of its sale by Noell Industries.6

•

Until Blackhawk LLC was sold in 2010, it was
managed by a six member management team, one
of whom was Mr. Noell. Mr. Noell did not direct the
day-to-day operations of Blackhawk LLC’s business. Responsibility for directing daily business

5

Noell Industries’ responses to Commission’s Request for Admissions, attached as Exh I to Decl. Nielson (Oct. 16, 2018).
6
Decl. M. Noell, ¶¶ 3-6 (Aug. 27, 2018); Aff. Nielson, Exh D (Oct.
16, 2018).

App. 55
operations was vested in the Executive Director of
Operations and the Vice President/CFO. Executive/
management meeting were held on a weekly basis.
Mr. Noell participated in these meeting with the
executive/management team. Ordinary business
and sales decisions concerning operations were
made by Steven Matulewicz (Vice President of
Sales and Executive Director of Operations), and
his team. Ordinary marketing decisions were under the purview of Terry Naughton (Vice President
of Marketing). Ordinary manufacturing decisions
were made by Clifton Cook (Vice President of
Manufacturing and Research and Development).
In addition, Blackhawk LLC had a full human resource department.7
•

On its tax return for taxable year 2009, Noell Industries reported that Blackhawk LLC generated
$10,496,500 in income for Noell Industries. The
other entity in which Noell Industries held an interest produced a loss of $396,394. Noell Industries’ only other source of income for 2009 was
$18,948 in interest. The, the vast majority of Noell
Industries’ reported income for 2009 derived from
its interest in Blackhawk, LLC.8

IV. ANALYSIS
In 1965, Idaho rewrote I.C. § 63-3027 for purposes
of codifying the majority of the Uniform Division of
Income for Tax Purposes Act (UDITPA) provisions.9
7
8
9

Decl. M. Noell, ¶¶ 1-3 (Oct. 30, 2018).
Aff. Nielson, Exh. L (Oct. 30, 2018).
1965 Session Laws ch. 254, § 1. p. 639.

App. 56
Section 63-3027 contains rules for determining the
taxable portion of a corporation’s total income from a
multistate business transacting business within and
without of Idaho. In general, I.C. § 63-3027 divides a
multistate corporation’s income into two groups: business income and non-business income. Income is either
apportioned or allocated. If a taxpayer earns “business
income” derived in some part in Idaho, such income
will be apportioned according to a three factor formula
based on sales, property and payroll. If the income is
non-business income, it will be allocated to the state of
the taxpayer’s commercial domicile. I.C. § 63-3027(d)(h). Specifically, capital gains from the sale of intangible personal property are allocable to Idaho if the
taxpayer’s commercial domicile is in Idaho, unless such
gains qualify as “business income.” I.C. § 63-3027(f)(3).
Noell Industries’ commercial domicile is in Virginia, not in Idaho. Therefore, to determine whether its
gain from the sale of its interest in Blackhawk LLC—
intangible property—is subject to apportionment by
Idaho, the gain must qualify as “business income” under I.C. § 63-3027(a)(1). Accordingly, the parties’ crossmotions for summary judgment present three questions: 1) whether Noell Industries’ gain from the sale
of its interest in Blackhawk LLC qualifies as business
income under Idaho law; 2) if so, whether allowing
Idaho to tax the gain is constitutional, and; 3) if constitutional, whether the alternative method of apportionment that the Commission utilized was reasonable.
In relevant part, I.C. § 63-3027(a)(1) defines business income for multistate or unitary corporations

App. 57
transacting business within and outside Idaho as follows:
‘Business income’ means income arising from
transactions and activity in the regular
course of the taxpayer’s trade or business and
includes income from the acquisition, management, or disposition of tangible and intangible property when such acquisition,
management, or disposition constitutes integral or necessary parts of the taxpayer’s trade
or business operations.10
As observed by the Idaho Supreme Court, this
statute sets forth “two separate and independent definitions of business income.” Union Pac. Corp. v. Idaho
State Tax Comm’n, 136 Idaho 34, 38-39, 28 P.3d 375,
379-80 (2001). The first definition for business income
is “income arising from transactions and activity in the
regular course of the taxpayer’s trade or business.” The
second definition is “income from the acquisition, management, or disposition of tangible and intangible
property when such acquisition, management, or
10

This definition is adapted from the Uniform Division of Income
for Tax Purposes Act (“UDITPA”), which provides: “Business income” means income arising from transactions and activity in the
regular course of the taxpayer’s trade or business and includes
income from tangible and intangible property if the acquisition,
management, and disposition of the properly constitute integral
parts of the taxpayer’s regular trade or business operations.”
Unif. Div. of Income for Tax Purposes Act § 1. UDITPA has been
adopted, in whole and in part, by 34 states. M. Bernadette Welch,
Construction and Application of Uniform Division of Income for
Tax Purposes Act (UDITPA)—Determination of Business Income,
74 A.L.R. 6th 1, § 2 (2012).

App. 58
disposition constitute integral or necessary parts of the
taxpayer’s trade or business operations.” Id. These two
definitions are commonly referred to as the “transactional test” and the “functional test,” respectively. Id.
A. Transaction of Business in Idaho
As recognized by the Income Tax Administrative
Rules, both the transactional and functional tests require that the income have some connection to the unitary business of the taxpayer, part of which is
transacted in Idaho. IDAPA 35.01.01.331.02.a. This is
because due process requires “some minimum connection between the interstate business activities generating the income and the state seeking to tax that
income. American Smelting and Refining Co. v. Idaho
State Tax Commission, 99 Idaho 924, 931, 592 P.2d 39,
46 (1979),11 citing Moorman Mfg Co. v. Blair, 437 U.S.
267 (1978). Idaho law reflects this due process requirement through I.C. § 63-3023, which provides:
Subject only to the limitations of the constitutions of the United States and of the state of
Idaho, the term ‘transacting business’ shall
11

This opinion was vacated and remanded by the United States
Supreme Court in Asarco Inc. v. Idaho State Tax Commission, 445
U.S. 939 (1980). The reason for remand was for further consideration in light of new case law. On remand, the Idaho Supreme
Court reinstated its opinion, finding it consistent with the new
case law, American Smelting v. Idaho State Tax Co., 102 Idaho
38, 624 P.2d 946 (1981). The reinstated opinion was then reversed
by the U.S. Supreme Court in ASARCO Inc. v. Idaho State Tax
Com’n, 458 U.S. 307 (1982) on the constitutional issue, but not on
the statutory interpretation issue.

App. 59
include owning or leasing, whether as lessor
or lessee, of any property, including real and
personal property, located in this state, or engaging in or the transacting of any activity in
this state, for the purpose of or resulting in
economic or pecuniary gain or profit.
I.C. § 63-3023.
Personal property encompasses intangible property.12 Thus, holding an interest in a company located
in Idaho for the purpose of or resulting in economic or
pecuniary gain or profit qualifies as “transacting business” in Idaho under I.C. § 63-3023. Further, Rule 620
of Idaho’s Income Tax Administrative Rules provides
that a corporation is “transacting business” simply by
being a partner in a partnership that is transacting
business in Idaho, even if the corporation has no other
contact with Idaho. IDAPA 35.01.01.620.02. The use of
the word “partnership” in Rule 620 includes any organization—including a limited liability company—
treated as a partnership under the Internal Revenue
Code. I.C. § 63-3006a. Thus, a corporation with an ownership interest in an LLC treated as a partnership is
transacting business in Idaho if that LLC is transacting business in Idaho and, as such, is required to file
an Idaho income tax return.
This rule is common to most states and under federal law. Jerome R. Hellerstein and Walter Hellerstein,
12

Black’s Law Dictionary defines “personal property” as: “Any
movable or intangible thing that is subject to ownership and not
classified as real property.” Personal Property, Black’s Law Dictionary (10th ed. 2014).

App. 60
State Taxation, ¶ 6.12 (3d ed. 2000); 26 U.S.C.
§ 875(1).13 The rule is recognizes that a partnership (or
LLC) is a “pass-through” entity for income tax purposes; gains and losses of the partnership are passed
directly onto the partners. Hellerstein. et al., supra at
¶ 6.12. Under this “aggregate theory,” a partnership is
treated as an aggregation of individuals, each of whom
owns an undivided interest in the partnership assets.
Id. Each general partner is treated as conducting the
partnership business directly and owning a share of
the partnership’s assets. Id. Thus, if the partnership
derives income from activity in Idaho and that income
is passed onto the partners, the partners must pay income tax to Idaho, even if the partner has no other connection to Idaho. Such taxation rules are widely held
to satisfy due process requirements.14 By contrast, the

13

26 U.S.C.A. § 875(1) provides: a nonresident alien individual or
foreign corporation shall be considered as being engaged in a
trade or business within the United States if the partnership of
which such individual or corporation is a member is so engaged[.]
14
See, e.g., International Harvester Co. v. Wisconsin Dept. of
Tax’n, 322 U.S. 435 (1944) (upholding validity, for due process
purposes, of tax on distributions to nonresident shareholders of
income derived from within a state by corporation in which taxpayers owned shares); Allied-Signal Inc. v. Comm’r of Fin., 79
N.Y.2d 73, 83. 588 N.E.2d 731, 737 (1991) (“Personal presence
within the state of the stockholder-taxpayers is not essential to
the constitutional levy of a tax taken out of so much of the corporation’s [state] earnings as is distributed to them.”); Borden
Chemicals & Plastics, L.P. v. Zehnder, 726 N.E.2d 73, 79 (Ill. App.
2000) (finding due process satisfied where a non-resident partner’s connection to Illinois was its partnership interest in the entity that availed itself of the laws of Illinois, its receipt of
distributable income earned in Illinois, and Illinois’ assertion of

App. 61
“entity theory” views a partnership as an entity distinct from the partners themselves, with the partners
holding an interest in the partnership itself but with
no direct interest in the partnership assets. J. William
Callison & Maureen A. Sullivan, Partnership Law &
Practice § 3:1 (2018 update).15
By owning an interest in Blackhawk LLC—which
does transact business in Idaho—Noell Industries also
transacts business in Idaho under the plain language
of I.C. § 63-3023 and Rule 620 for purposes of income
tax filing requirements. Indeed, Noell Industries does
not dispute that Rule 620 requires it to report and pay
taxes on income loss or gain from the operation of
Blackhawk LLC—it has been doing so for years. Noell
Industries disputes, however, that I.C. § 63-3023 and
Rule 620 apply to determine the taxpayer’s trade or
business for purposes of determining whether it
earned “business income” under I.C. § 63-3027(1)(a).
According to Noell Industries, this approach would disregard the entity theory of partnerships in favor of an
aggregate theory.
To this end, Noell Industries relies on the TTX Co.
v. Idaho State Tax Com’n, where the Idaho Supreme
Court determined that a foreign corporation could not
be taxed on its business income by Idaho because it did
jurisdiction over the partner for the sole purpose of taxing this
distributable income.)
15
Idaho has adopted the Revised Uniform Partnership Act which
incorporates the entity theory. Under Idaho law, a limited liability company is an entity distinct from its member or members.
I.C. § 30-25-108.

App. 62
not transact business in Idaho. 128 Idaho 483, 915 P.2d
713 (1996). The Court finds TTX distinguishable. In
TTX, a Delaware corporation, TTX Company (“TTX”),
leased railroad cars to various railroads operating in
Idaho and paid Idaho property tax on the cars while
they were in Idaho. Id. at 484, 915 P.2d at 714. The
Idaho Tax Commission sought to tax TTX’s income realized from the presence of its cars in the state. To determine whether TTX’s income was taxable by Idaho,
the Court first looked to I.C. § 63-3027 which, at that
time, applied to “any corporation with a business situs
in [Idaho].” Id. at 485, 915 P.2d at 715, citing I.C. § 633027 (1993). The Court then turned to I.C. § 63-3023(a)
which, at that time, stated that “business situs” included “the owning or operating of . . . property . . .
within the state of Idaho.” Id., citing I.C. § 63-3023(a)
(1988). Based on the unambiguous language of the
statutes, the Court found that TTX had a business situs in Idaho. Id. However, the Court noted that the definition of business income under I.C. § 63-3027(a)—
which was the same as it is today—and authorities interpreting the definition required that some portion of
the taxpayer’s income “arise from transactions and activities conducted in this state” to be taxable by Idaho.
Id. at 785-86, 915 P.3d at 715-16, citing American
Smelting, 99 Idaho at 931, 592 P.2d at 46. Notably, both
parties agreed that TTX did not transact business in
Idaho nor was it authorized to transact business in
Idaho. Id. Further, TTX submitted an affidavit from a
corporate officer stating that TTX undertook no business transactions in Idaho. Because the Tax Commission failed to produce evidence in opposition, the Court

App. 63
concluded that the corporation derived no “business income” from the presence of its railroad cars in Idaho
because it did not transact business in Idaho. Id. at
486, 915 P.2d at 716.
The Court decided TTX by applying the plain language of I.C. §§ 63-3023 and 63-3027. However, since
TTX was decided, both statutes were amended to remove references to “business situs.” Rather than stating that a “business situs” in Idaho could be developed
by, among other things, the owning of property in
Idaho, I.C. § 63-3023 was amended to state that such
activity constituted “transacting business.” 1995 Idaho
Laws Ch. 111 (H.B. 132). Likewise, amendments were
made to I.C. § 63-3027 so that it no longer applies to a
corporation “with a business situs in Idaho” but instead applies to a “multistate or unitary corporation
transacting business both within and without [Idaho.]”
Compare, I.C. § 63-3027 (1993) with I.C. § 63-3027
(2014). If the Court were to analyze TTX based on the
plain language of the statutes as amended, it would
necessarily conclude that TTX transacted business in
Idaho by virtue of owning property in Idaho. Rule 620
and I.C. § 63-3023 are unambiguous in this regard—by
virtue of owning an interest (personal property) in a
partnership transacting business in Idaho, Noell Industries is also transacting business in Idaho. Thus,
whether Noell Industries’ income is taxable by Idaho
is governed by the definition of “business income.”

App. 64
B. Transactional Test
Under the transactional test, income arising from
transactions and activity in the regular course of the
taxpayer’s trade or business qualifies as business income. I.C. § 63-3027. Pursuant to Rule 332 of Idaho’s
Income Tax Administrative Rules, the transaction or
activity need not be one that frequently occurs in the
trade or business. Instead, a transaction or activity is
in the regular course of a trade or business “if it is reasonable to conclude transactions of that type are customary in the kind of trade or business being
conducted or are within the scope of what that kind of
trade or business does.” IDAPA 35.01.01.332. If the
transaction or activity is for the taxpayer’s mere financial betterment rather than for the operations of the
trade or business, such activities do not satisfy the
transactional test. Id.
Noell Industries contends that the gain it realized
on the sale of its interest in Blackhawk LLC does not
qualify as business income under the transactional
test because the gains did not arise from Noell Industries’ regular trade or business, which is limited almost
entirely to holding an interest in Blackhawk LLC. The
Commission contends that the transactional test is
satisfied because Noell Industries represented itself to
be an investment company and the sale of an investment is a customary transaction for an investment
company.
The first issue to determine is Noell Industries’
trade or business. Noell Industries represented itself

App. 65
on its federal income tax returns in 2010 as being engaged in the business activity of “investment.” However, the record demonstrates that Noell Industries
was not an investment company in the typical sense of
the word. It was not in the business of buying and selling interests in other companies or issuing securities.
From 2004 to 2010, Noell Industries’ trade or business
was limited to owning a membership interest in Blackhawk LLC and in a separate company in Virginia that
leases real property to Blackhawk, LLC. Its activity
consisted of owning two assets, with its membership
interest in Blackhawk LLC being its primary asset. It
was essentially a holding company or parent company
to Blackhawk LLC.
The following two cases illustrate the application
of the transactional test when the gain arises from the
taxpayer’s sale of a subsidiary. In E.I. DuPont De
Nemours & Co. v. Indiana Dep’t of State Revenue, the
taxpayer’s regular business was in industrial, agricultural and chemical manufacturing. 79 N.E.3d 1016,
1018 (Ind. T.C. 2017). It sold its 50% interest in a pharmaceutical subsidiary after three years of ownership,
resulting in a $4 billion gain. Id. The tax court found
that the gain did not qualify as business income under
the transactional test because the taxpayer’s business
was not the buying and selling of it subsidiaries. Id. at
1023. Conversely, in PPG Indus., Inc. v. Dep’t of Revenue, the Illinois Court of Appeals determined that gain
from the sale of the taxpayer’s subsidiary did qualify
as business income under the transactional test where
the taxpayer’s annual report indicated that it acquired

App. 66
and sold several businesses in the tax year at issue as
part of its strategic and performance objectives. 765
N.E.2d 34, 45 (Ill. App. 2002).
The record here demonstrates that, as a holding
company or parent company, Noell Industries did not
engage in the business of buying and selling other companies, nor is it reasonably customary for companies
similarly situated to Noell Industries to do so. Holding
companies are designed to hold an interest in another
company, not dispose of it.16 The same is true for parent
companies.17 As such, the Court finds that Noell Industries’ gain from the sale of its interest Blackhawk LLC
does not qualify as business income under the transactional test.
C. Functional Test
Under the functional test, “business income” includes income from “the acquisition, management. or
disposition of tangible and intangible property when
such acquisition, management, or disposition constitutes integral or necessary parts of the taxpayer’s
16

Black’s Law Dictionary defines “holding company” as “a company formed to control other companies, usu. confining its role to
owning stock and supervising management. It does not participate in making day-to-day business decisions in those companies.” COMPANY, Black’s Law Dictionary (10th ed. 2014).
17
Black’s Law Dictionary defines “parent corporation” as “a corporation that has a controlling interest in another corporation
(called a subsidiary corporation), usu. through ownership of more
than one-half the voting stock.” CORPORATION, Black’s Law
Dictionary (10th ed. 2014).

App. 67
trade or business operations.” I.C. § 63-3027(a)(1). Importantly, “gains or losses and dividend and interest
income from stock and securities of any foreign or domestic corporation shall be presumed to be income
from intangible property, the acquisition, management, or disposition of which constitutes an integral
part of the taxpayer’s trade or business.” I.C. § 633027(a)(1). This presumption may only be overcome by
“clear and convincing evidence to the contrary.” Id.
Thus, the Court must presume the gain realized by Noell Industries on its sale of its interest in Blackhawk
LLC satisfies the functional test unless Noell Industries presents clear and convincing evidence that it
does not.
Noell Industries argues that its gain does not
qualify as business income under the functional test
because its interest in Blackhawk LLC was simply a
passive investment. It further argues it did not have a
unitary relationship with Blackhawk LLC nor did its
interest in Blackhawk LLC serve an operational purpose for Noell Industries because Noell Industries did
not have operations. Conversely, the Commission argues that Blackhawk LLC was an integral part of Noell Industries’ trade or business because the two
companies were one in the same, with Blackhawk LLC
simply acting as the operational arm of the business
enterprise since 2004. The Commission contends that
Michael Noell continued to control both companies and
points out that the pass-through income Noell Industries received from Blackhawk LLC’s income drove Noell Industries’ bottom line. Thus, according to the

App. 68
Commission, Noell Industries cannot satisfy its burden of proof.
Both the Idaho Supreme Court and Idaho’s Income Tax Administrative Rules instruct that the focus
of the inquiry under the functional test is on the relationship between the intangible property itself and the
taxpayer’s trade or business operations. See, IDAPA
35.01.01.330 (“Rule 333”); American Smelting, 99
Idaho at 937, 592 P.2d at 52. The intangible property
need not be “an absolutely indispensable part” of the
taxpayer’s business; rather, it must “contribute[ ] to
and [be] identifiable with the taxpayer’s trade or business operations.” American Smelting, 99 Idaho at 932,
592 P.2d at 47. This connection is not met where the
underlying property is simply a passive investment. As
observed by the Idaho Supreme Court:
In our view, in order for such income to be
properly classified as business income there
must be a more direct relationship between
the underlying asset and the taxpayer’s trade
or business. The incidental benefits from investments in general, such as enhanced credit
standing and additional revenue, are not, in
and of themselves, sufficient to bring the investment within the class of property the acquisition, management or disposition of
which constitutes an integral part of the taxpayer’s business operations. This view furthers the statutory policy of distinguishing
that income which is truly derived from passive investments from income incidental to

App. 69
and connected with the taxpayer’s business
operations.
Id. at 933, 592 P.2d at 48.
Idaho’s Income Tax Rules likewise instruct that
the income realized from the disposition of intangible
property will not qualify as business income under the
functional test if it serves an investment rather than
operational purpose. Rule 333 provides in relevant
part:
03. Integral, Function, or Operative Component of Trade of Business. Under the
functional test, business income need not be
derived from transactions or activities that
are in the regular course of the taxpayer’s own
particular trade or business. It is sufficient, if
the property from which the income is derived
is or was an integral, functional, or operative
component used in the taxpayer’s trade or
business operations, or otherwise materially
contributed to the production of business income of the trade or business, part of which
trade or business is or was conducted within
Idaho. Depending on the facts and circumstances of each case, property that has been
converted to nonbusiness use through the
passage of a sufficiently lengthy period of time
or that has been removed as an operational
asset and is instead held by the taxpayer’s
trade or business exclusively for investment
purposes has lost its character as a business
asset and is not subject to the rule of the preceding sentence.

App. 70
...
05. Operational Function Versus Investment Function. Under the functional test,
income from intangible property is business
income when the intangible property serves
an operational function as opposed to solely
an investment function. The relevant inquiry
focuses on whether the property is or was held
in furtherance of the taxpayer’s trade or business, that is, on the objective characteristics
of the intangible property’s use or acquisition
and its relation to the taxpayer and the taxpayer’s activities. The functional test is not
satisfied where the holding of the property is
limited to solely an investment function as is
the case where the holding of the property is
limited to mere financial betterment of the
taxpayer in general. (4-6-05)
06. Property Held in Furtherance of
Trade or Business. If the property is or was
held in furtherance of the taxpayer’s trade or
business beyond mere financial betterment,
then income from that property may be business income even though the actual transaction or activity involving the property that
gives rise to the income does not occur in
Idaho. (4-6-05)
...
08. Application of the Functional Test. . . .
Income arising from an intangible interest . . .
is business income when the intangible itself or the property underlying or associated
with the intangible is or was an integral,

App. 71
functional, or operative component to the taxpayer’s trade or business operations. Thus,
while apportionment of income derived from
transactions involving intangible property as
business income may be supported by a finding that the issuer of the intangible property
and the taxpayer are engaged in the same
trade or business, i.e., the same unitary business, establishment of such a relationship is
not the exclusive basis for concluding that the
income is subject to apportionment. It is sufficient to support the finding of apportionable
income if the holding of the intangible interest
served an operational rather than an investment function of mere financial betterment.
(4-6-05)
Rule 333.
Pursuant to Rule 333, income realized from a
transaction involving intangible property can satisfy
the business income definition under the functional
test in two situations. First, the test is met if the issuer
of the intangible property and the taxpayer are unitary. A “unitary business” is defined under Idaho’s income tax rules as “a single economic enterprise that is
made up either or separate parts of a single business
entity or of a commonly controlled group of business
entities that are sufficiently interdependent, integrated and interrelated through their activities so as
to provide a synergy and mutual benefit that produces
a sharing or exchange of value among them and a significant flow of value to their separate parts.” IDAPA
35.01.01.365. Second, the test is met if the intangible

App. 72
interest serves an operational function rather than an
investment function.
Rule 333’s interpretation of the functional test
comports with the analytical framework set forth by
the United States Supreme Court for determining the
constitutional restraints on state apportionment of income.18 Under both the Due Process and the Commerce
Clauses of the United States Constitution, when imposing an income-based tax, a state may not “tax value
earned outside its borders.” Container Corp. of America
v. Franchise Tax Bd., 463 U.S. 159, 164 (1983), quoting
ASARCO Inc. v. Idaho State Tax Comm’n, 458 U.S. 307,
315 (1982). Rather, there must be “some definite link.
some minimum connection, between a state and the
person, property or transaction it seeks to tax.” AlliedSignal, Inc. v. Dir., Div. of Taxation, 504 U.S. 768, 777
(1992), quoting Miller Brothers Co. v. Maryland, 347
U.S. 340, 344-345 (1954). For income realized from a
nondomiciliary taxpayer’s acquisition, management or
disposition of an intangible asset, apportionment is
constitutional where either there is enterprise unity
between the investor and investee or when the capital
transaction serves an operational rather than investment function for the taxpayer. Id. 772, 787.19

18

Rule 334 or Idaho’s Income lax Administrative Rules states
that the transactional and functional tests are intended to comply
with the United States Constitution.
19
The United States Supreme Court has noted that the definitions of ‘business income” in UDITPA are “compatible” with the
unitary business principle. Allied-Signal, 504 U.S. at 786.

App. 73
Where, however, the underlying asset is an interest in another business, income derived from the sale
of the interest is apportionable under the Commerce
Clause only if there is a unitary relationship between
the taxpayer and the other business. Meadwestvaco
Corp v. Illinois Dept. of Revenue, 553 U.S. 16, 30 (2008).
In other words, whether the other business—typically
a subsidiary company—served an operational function
is not a ground for apportionment unless it is a unitary
part of the taxpayer’s business. The “hallmarks” of a
unitary relationship are functional integration, centralized management and economics of scale. Meadwestvaco Corp., 553 U.S. at 30.20 These determinations are
factual in nature, subject to determination by the factfinder, and the following considerations are relevant:
(1) a flow of value between the entities that serves operational (rather than investment) functions is evidence of functional integration; (2) arms-length
transactions are evidence of a lack of integration; and
(3) “occasional oversight—with respect to capital structure, major debt. and dividends—that any parent gives
to an investment in a subsidiary” is evidence of a lack
of centralized management. Container Corp., 463 U.S.
at 180, n, 19.

20

Idaho’s Income Tax Administrative Rules likewise cite these
three factors as suggestive of a unitary business. IDAPA
35.01.01.341.02.

App. 74
1. Meadwestvaco
The United States Supreme Court’s decision in
Meadwestvaco—its most current articulation of the
constitutional parameters of apportionment—illustrates this distinction. There, the taxpayer—Mead—
had its commercial domicile in Ohio and engaged in
business in Illinois. Id. at 20. Mead’s business was producing and selling paper, packaging and school/office
supplies. Id. Mead subsequently acquired a company
that, over the course of many years, Mead developed
into the electronic research service, Lexis/Nexis.21 Id.
Lexis was subject to Mead’s oversight, but Mead did
not manage Lexis’s day-to-day affairs. Id. at 21. The
two maintained separate manufacturing, sales and
distribution facilities, as well as separate accounting.
legal, human resources, credit and collections, purchasing and marketing departments. Id. Mead’s involvement in Lexis was generally limited to approving
Lexis’s annual business plan and significant corporate
transactions. Id. at 22. Mead also managed Lexis’s idle
cash, which was swept nightly into an account maintained by Mead and reinvested in Lexis’s business as
Mead deemed appropriate. Id. Neither business was
required to purchase goods or services from the other;
neither received discounts on goods and services purchased from the other; and neither was a significant

21

The taxpayer initially incorporated Lexis as a separate subsidiary but then merged it as a division of the taxpayer’s business.

App. 75
customer of the other. Id. Mead sold Lexis and used the
gain to repurchase stock, retire debt and pay taxes. Id.
Mead took the position that the gain from its sale
of Lexis was not includable in its Illinois apportionable
tax base. Id. at 23. The trial court held that Mead and
Lexis were not engaged in a unitary business because
the three “hallmarks” were not present. Nevertheless,
the trial court concluded that Lexis served an “operational purpose” in Mead’s business and, therefore, held
the gain was apportionable. Id. The Illinois Court of
Appeals affirmed, concluding that Lexis served an operational function in Mead’s business because: 1) Mead
wholly owned Lexis; 2) Mead exercised control over
Lexis in various ways, such a manipulating its corporate form, approving significant capital expenditures,
and retaining tax benefits and control over Lexis’s free
cash, and; 3) Mead described itself in regulatory filings
as engaged in electronic publishing and developer of a
leading information retrieval service. Id.
The issue before the United States Supreme Court
was whether Lexis served an operational function in
Mead’s business or whether it was a passive investment. Id. at 24. However, the Court concluded that it
was error for the lower courts to even consider whether
Lexis served an operational function after concluding
Lexis and Mead were not unitary. Id. The Court explained the genesis of the unitary business principle,
including its prior recognition that an asset or capital
transaction could form part of a taxpayer’s unitary
business if it served an operational rather than investment function in that business. Id. at 28-29, citing

App. 76
Allied-Signal, 504 U.S. at 787 and Container Corp., 463
U.S. at 180, n. 19. The Court clarified that the “operational function” was not intended as a separate ground
for apportionment absent a unitary business. Id. at 29.
“The concept of operational function simply recognizes
that an asset can be a part of a taxpayer’s unitary business even if what we may term a ‘unitary relationship’
does not exist between the ‘payor’ and ‘payee.’ ” Id.
By way of example, the Court pointed to its decision in Corn Products- Refining Co. v. Commissioner,
where it held that income derived from the taxpayer
from its corn futures contract held to hedge itself
against an increase in corn prices was operational,
even though the taxpayer was not unitary with the
counterparty to the hedge. Id. at 29. citing Corn Products, 350 U.S. 46 (1955). Likewise, a taxpayer is not
unitary with its banker, but the taxpayer’s deposits of
working capital (i.e., operational assets) are unitary
with the taxpayer. Id. Thus, where the asset is another
business, the question is whether that business is unitary with the taxpayer. Id. at 30. This inquiry is not
answered by applying the operational function test; rather, the appropriate test is whether the three “hallmarks” exist between the taxpayer and the subsidiary
business. Id.
2. American Smelting
Long before Meadwestvaco was decided, the Idaho
Supreme Court applied a similar approach in American Smelting in addressing whether income from the

App. 77
sale of intangibles met the functional test of I.C. § 633027. There, the taxpayer—ASARCO—was a multistate corporation engaged in mining, smelting and refining metals and had a commercial domicile in New
York, 99 Idaho at 927, 592 P.2d at 42. It owned a controlling or substantial interest in several corporations,
most of which were engaged in related operations. Id.
At issue in the case was the apportionability of
ASARCO’s receipt of intercorporate dividends, interest
income, and capital gains from the sale of such stock.
In considering the functional test set forth in I.C. § 633027, the Court recognized that there must be a “direct
relationship” between the underlying asset and the
taxpayer’s trade or business such that the asset “contributes to and is identifiable with the taxpayer’s trade
or business.” Id at 932-33, 592 P.2d at 48-49. It further
endorsed the principle that “whether a number of business operations having common ownership constitute
a single or unitary business or several separate businesses for tax purposes depends upon whether they
are of mutual benefit to one another and on whether
each operation is dependent on or contributory to others. Id. at 931, 592 P.2d at 46.
In determining whether this relationship was met,
the Court examined the interconnectivity between
ASARCO and the subsidiaries at issue. Id. at 935, 592
P.2d at 50. While the Court did not specifically cite
to the three hallmarks of a unitary relationship—functional integration, centralized management and economics of scale—it analyzed whether similar
connections were present. For most of the subsidiaries,

App. 78
the Court found the connection satisfied. ASARCO
owned a controlling or “very substantial” interest in
each, they all engaged in business closely related to
ASARCO’s, and, with the exception of one subsidiary,
ASARCO did a substantial amount of business with
them and provided them with a variety of technical
services. With other subsidiaries, the connection was
not met where the business operations of the subsidiaries was unrelated to that of ASARCO. With the final
group of subsidiaries, the Court found no connection
where ASARCO’s stock ownership was small and their
business dealings with ASARCO were limited. Id. at
936, 592 P.2d at 51.
3. Other jurisdictions
Other jurisdictions also recognize that constitutional norms require a unitary relationship where
the income at issue arising from the taxpayer’s sale
of an interest in another company. For example, in
E.I. DuPont De Nemours & Co., the Indiana Tax Court
classified the taxpayer’s gain on the sale of its 50% interest in a relatively independent subsidiary as nonbusiness income under Indiana’s UDITPA definition of
‘business income” and under the unitary principle
standard articulated by the United States Supreme
Court, 79 N.E.3d at 1022-24. Namely, the taxpayer
demonstrated that it exercised only “occasional oversight” over the subsidiary, they two business operated
independently in different industries, they engaged in
arms-length transactions, and they did not share centralized management. Id. at 1024. As such, the tax

App. 79
court found the taxpayer’s gain was not apportionable
business income. Id.22
The unitary relationship analysis is likewise applied where the taxpayer’s business is limited to holding an interest in another company. For example. in
Western Phoenix, N.V. v. Arizona Department of Revenue, the taxpayer was a foreign corporation whose sole
activity was holding a 25% interest in an Arizona partnership that owned a commercial building in Phoenix.
1994 WL 143279, * 1 (Ariz.Bd. Tax.App. March 8, 1994).
The taxpayer sold part of its interest to another corporation and allocated the gain from the sale to Texas,
the state from where the taxpayer conducted its activities with relation to the partnership interest. The Arizona Department of Revenue sought to tax part of the
gain. Much like the Commission here, the Department
argued that the business of the partnership and the
business of the taxpayer were one and the same because the taxpayer’s only business was owning an interest in the partnership. As such, the Department
argued there was no need to apply the unitary test. Id.
at * 2. The Board of Tax Appeals disagreed, finding that
the income could only be apportionable under Arizona’s business income statute (also UDITPA) if the
companies were unitary. Noting that the taxpayer had
no real operation, no employees, no offices, and its sole
22

See also, BIS LP, Inc. v. Dir., Div. of Taxation, 2011 WL
3667622, at *6 (N.J. Super. Ct. App. Div. Aug. 23, 2011); E. I. Du
Pont de Nemours & Co. v. Dep’t of Treasury, 2012 WL 3196087, at
*2 (Mich. Ct. App. Aug. 7, 2012): Gannett Co. v. State Tax Assessor, 959 A.2d 741, 749-51 (Me. 2008).

App. 80
business was investment in the partnership, the Board
found there was no unitary relationship and, therefore,
the gain was not apportionable to Arizona. Id. at * 3.23
As noted by one prominent authority on the issue
of state taxation, a holding company will not always be
excluded as part of a unitary business if it is shown to
exercise control over the subsidiary to some degree.
In practice, such holding companies usually
exercise control of [its subsidiaries’] budgets,
large expenditures, major policies, and the
general mode of operation of the subsidiaries.
To exclude the owning, controlling, integrating holding company that binds the affiliated
group into unity is to play Hamlet without the
Prince. . . . Accordingly, we believe that a holding company, which holds a majority or more
of the shares of stock of one or more subsidiaries of a unitary business which controls
such subsidiaries, should be recognized without more as part of the unitary business. Engaging in basic operating transactions with
other members of the group, such a buying
and selling goods, or performing internal services, such as providing management, financial, accounting, legal or similar services,

23

See also, In the Matter of PBS Building Systems, Inc., 1994 WL
719050 (Cal. St. Bd. Equalization, Nov. 17, 1994) (applying unitary analysis to determine whether holding company and its subsidiary were required to tile combined return); First National
Bank of Manhattan, Kansas v. Kansas Dept. of Rev., 779 P.2d 457
(Kan. App. 1989) (analyzing whether bank and its holding company were unitary for purposes of a state privilege tax).

App. 81
should be regarded as a sine qua non of being
part of the unitary business.
Hellerstein, et. al., supra at ¶ 8.11[3][d]
Hellerstein’s comments instruct that, absent a
holding company’s exercise of control over its subsidiary or any other meaningful interaction, unitariness is
lacking.
The Commission contends that the unitary test is
not well-suited for determining whether a state may
constitutionally apportion gain realized by a holding
company because the test requires a comparison of
holding company’s business operations with the subsidiary’s business operations. For holding companies,
there will never be a finding of unitariness with the
underlying subsidiary because holding companies typically do not have operations. To this end, the Commission cites to two Tennessee cases where the courts
made the same observation. In Blue Bell Creameries v.
Roberts, the Supreme Court of Tennessee addressed
the application of the unitary relationship test between a non-operating holding company and an operating business. 333 S.W.3d 59 (Tenn. 2011). Noting
that the test was “ill-suited” for assessing the relationship between the two, the court reframed the analysis
to require that the taxpayer demonstrate that the
holding company was a “discrete business enterprise”
rather than demonstrating that the two were not unitary. Id. at 71-72. Because the holding company did not

App. 82
conduct business operations, the court found the taxpayer could not satisfy this burden.24
Rather than apply the three-prong unitary test,
the Commission urges that the Court apply the same
approach utilized in Blue Bell. However, the Court is
not so inclined. The United States Supreme Court has
expressly rejected pleas to jettison the unitary business principle where it proved difficult to apply to two
businesses that were entirely unrelated. Allied-Signal,
504 U.S. at 784. Although this Court agrees that the
test for unitariness can be flexible depending on the
circumstances, the Court is not willing to discard it altogether, especially given the Blue Bell court’s lack of
thoughtful analysis and the fact that its approach has
not been followed outside of Tennessee.
The Court also finds Blue Bell approach inconsistent with the functional test, which favors an entity
theory rather than an aggregate theory and recognizes
that income from a passive investment is not subject
to apportionment. Further, the Blue Bell approach assumes that a holding company is inactive and, therefore, per se incapable of providing a flow of value to or
from an operating company. However, a holding company can still provide financing or loan guarantees to
the operating company or provide other forms of value
which can give rise to a finding of unity. See, e.g., In the
Matter of PBS Building Systems, Inc., 1994 WL 719050
24

The Tennessee Court of Appeals followed this same rationale
in H.J. Heinz Co., L.P. v. Chumley, 2011 WL 2569755 (Tenn. App.
June 28, 2011).

App. 83
(Cal. St. Bd. Equalization, Nov. 17, 1994) (concluding
holding company was unitary with its operating subsidiary where there was a complete overlap of officers
and directors, extensive intercompany financing, and
where the holding company purchased a covenant not
to compete for the benefit of its subsidiary). The Court
declines to follow Blue Bell on this issue.
4. Application of the unitary tests
While the United States Supreme Court deemed
the “hallmarks” of a unitary relationship to be functional integration, centralized management and economics of scale, it also observed that “any number of
variations on the unitary business theme are logically
consistent with the underlying principles motivating
the approach.” Meadwestvaco Corp., 553 U.S. at 30; see
also, Container Corp., 463 U.S., 178 at fn. 17 (“there is
a wide range of constitutionally acceptable variations
on the unitary business theme”). “The prerequisite to
a constitutionally acceptable finding of unitary business is a flow of value.” Container Corp., 463 U.S. at
178 (emphasis in original). Flow of value is often characterized by substantial mutual interdependence. Id.
at 178-79. No one fact necessarily determines whether
unity exists. Id. at 179-80. Rather, the totality of the
facts are examined and weighed for cumulative effect.
Id.
Two other tests have been employed to measure
this flow of value—the Butler Brothers test and the
Edison test. The Butler Brothers test—which is the

App. 84
earliest of the three tests—focuses on unity of use, operation and management as evidenced by central purchasing, advertising, accounting, and management,
and the unity of a centralized executive force and
general system of operation. The Edison test focuses
on “contribution and dependency.” Edison California
Stores, Inc. v. McColgan, 183 P.2d 16, 20 (Cal. 1947). If
the operations of the business performed within the
taxing state contribute to or are dependent on the operations of the business performed outside the taxing
state, the test is met. Id. at 21. Idaho’s Income Tax Administrative Rules state that unity can be established
under any one of these three tests. Rule 341.01.
The facts presented by Noell Industries demonstrate a lack of unity between it and Blackhawk LLC
under any of the three articulations of unity. The companies were not functionally integrated. Factors that
demonstrate such functional integration is a history of
transactions not undertaken at arm’s length or the
sharing of finances. Allied-Signal, 504 U.S. at 789.
Here, the only transaction between the two companies—other than Noell Industries’ transfer of assets to
Blackhawk LLC in 2004 in exchange for an interest
therein—is that Blackhawk LLC leases property from
another business owned by Noell Industries, but the
lease terms are at market. Further, they did not share
assets, share expenses or provide financing or other
services to each other.
Additionally. there was no centralized management between Noell Industries and Blackhawk LLC.
Centralization of management entails substantial

App. 85
participation and oversight by the management of the
parent company in the operational decisions of the
subsidiary. Container Corp., 463 U.S. at 180, n. 19. The
inquiry focuses on “whether the management role
that the parent does play is grounded in its own operational expertise and its overall operational strategy.”
Id. While the Commission places great weight on the
fact that Michael Noell was Blackhawk LLC’s President and CEO and the primary shareholder in Noell
Industries. Inc., this sole overlap is not sufficient to
demonstrate centralized management. The evidence
demonstrates that Blackhawk LLC was organized as a
“manager managed” LLC and overseen and operated
by a separate six member management team, only one
of whom was Mr. Noell. Further, Mr. Noell did not direct the day-to-day operations. Rather, responsibility
for directing daily business operations was vested in
the Executive Director of Operations and the Vice
President/CFO. Ordinary business and sales decisions
concerning operations were made by Vice President of
Sales and Executive Director of Operations and his
team. Ordinary marketing decisions were under the
purview of the Vice President of Marketing. Ordinary
manufacturing decisions were made by the Vice President of Manufacturing and Research and Development. These officers had no involvement with Noell
Industries.
Further, while Noell Industries—as the majority
interest holder—may have had the potential to exert
control over Blackhawk LLC, it is well-settled that the
mere potential to control is not sufficient to establish

App. 86
centralization of management. Allied Signal, 504 U.S.
at 781. Otherwise. every majority-owned business
would be deemed unitary even where, as here, the parent takes deliberate steps to relinquish control over
the subsidiary and establish independent management.
Economies of scale are present where the companies in question are engaged in the same line of business. Allied Signal, 504 U.S. at 789. While, as the
Commission points out, Noell Industries was Blackhawk LLC until 2004, it divested itself entirely of the
business operations and functioned solely to hold interest in Blackhawk LLC and another company since
that time. As recognized by Idaho’s Rule 333, a taxpayer can convert an operational asset into an investment or an asset can be converted to nonbusiness use
through the passage of a sufficiently lengthy period of
time. Conversion occurred under both prongs here. Noell Industries converted its operational asset—tactical
gear manufacture and sale—to Blackhawk LLC in exchange for an interest therein and then held the interest for six years. By the time of Noell Industries’ sale
of Blackhawk, there can be no credible argument that
Noell Industries continued to be engaged in the same
business as Blackhawk LLC. Depending on the facts
and circumstances of each case, or that has been removed as an operational asset and is instead held by
the taxpayer’s trade or business exclusively for investment purposes has lost its character as a business asset and is not subject to the rule of the preceding
sentence

App. 87
Not only does the Meadwestvaco test result in a
finding of no unity, so do the Butler Brothers and Edison tests for the same reasons. Noell Industries and
Blackhawk LLC do not share central purchasing, advertising, accounting, a centralized executive force and
general system of operation. Likewise, their business
operations are not dependent on each other. Noell Industries does not have operations; rather, it exists to
hold its shareholders’ business interests. Due to the
lack of unity between Noell Industries and Blackhawk
LLC, the Court finds that income realized by Noell Industries from the sale of its interest in Blackhawk LLC
does not satisfy the functional test under I.C. § 633027(a)(1).
In sum, the Court concludes that the gain realized
by Noell Industries does not qualify as business income that can be apportioned to Idaho. Therefore, the
Court need not undertake an analysis of whether the
Commission’s alternative apportionment calculation is
reasonable.
V.

ORDER

Based on the foregoing, Noell Industries’ motion
for summary judgment is GRANTED; the Commission’s motion for summary judgment is DENIED and

App. 88
the Commission’s motion to strike the declaration of
David Chase is DENIED as moot.
Dated this 14th day of February, 2019.
/s/ Steven Hippler
Steven Hippler
District Judge

[Certificate Of Mailing Omitted]

App. 89
IN THE SUPREME COURT OF
THE STATE OF IDAHO
NOELL INDUSTRIES, INC., Order Denying
a Virginia corporation,
Petition for
Rehearing
Plaintiff-Respondent,
Supreme Court Docket
No. 46941-2019

v.
IDAHO STATE TAX
COMMISSION,
Defendant-Appellant.

Ada County District
Court No. CV01-1802355

The Appellant filed a Petition for Rehearing on June
10, 2020, and supporting brief on June 24, 2020, of the
Court’s Published Opinion released May 22, 2020. The
Respondent filed a Response to Petition for Rehearing
on August 4, 2020. Therefore, after due consideration,
IT IS HEREBY ORDERED that Appellant’s Petition
for Rehearing be, and hereby is, denied.
Dated August 14, 2020
By Order of the Supreme Court
/s/ Melanie Gagnepain
Melanie Gagnepain
Clerk of the Courts

